<html>
<title> - [H.A.S.C. No. 115-60] Securing The Peace After The Fall Of Isil</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-60]

                        SECURING THE PEACE AFTER

                            THE FALL OF ISIL

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 3, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-563                      WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>   


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

K. MICHAEL CONAWAY, Texas            SETH MOULTON, Massachusetts
MATT GAETZ, Florida                  TOM O'HALLERAN, Arizona
JIM BANKS, Indiana                   THOMAS R. SUOZZI, New York
LIZ CHENEY, Wyoming                  JIMMY PANETTA, California
AUSTIN SCOTT, Georgia
              Elizabeth Conrad, Professional Staff Member
                       Barron YoungSmith, Counsel
                         Anna Waterfield, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Moulton, Hon. Seth, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Panel 1:

  Crocker, Hon. Ryan, Former Ambassador to Iraq (2007-2009), 
    Diplomat in Residence, Woodrow Wilson School, Princeton 
    University...................................................     4
  Lynch, Dr. Marc, Professor of Political Science, The George 
    Washington University........................................     6
  Pollack, Dr. Kenneth M., Resident Scholar, American Enterprise 
    Institute....................................................     5

Panel 2:

  Pennington, Joseph S., Deputy Assistant Secretary for Iraq, 
    Bureau of Near Eastern Affairs, Department of State; and 
    Pamela G. Quanrud, Director, Global Coalition to Defeat ISIS, 
    Department of State..........................................    23
  Swayne, Mark, Acting Deputy Assistant Secretary for Stability 
    and Humanitarian Affairs, Office of the Assistant Secretary 
    of Defense, Special Operations/Low-Intensity Conflict, 
    Department of Defense; and BGEN James Bierman, USMC, Director 
    of Middle East Division, Joint Staff J-5, Department of 
    Defense......................................................    23

                                APPENDIX

Prepared Statements:

    Crocker, Hon. Ryan...........................................    44
    Hartzler, Hon. Vicky.........................................    41
    Lynch, Dr. Marc..............................................    69
    Moulton, Hon. Seth...........................................    42
    Pennington, Joseph S.........................................    84
    Pollack, Dr. Kenneth M.......................................    52
    Swayne, Mark.................................................    79

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Moulton..................................................    91
    Mr. Suozzi...................................................    91
               
               
               
               SECURING THE PEACE AFTER THE FALL OF ISIL

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Tuesday, October 3, 2017.
    The subcommittee met, pursuant to call, at 3:26 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Good afternoon. This hearing will come to 
order.
    I want to welcome the ranking member who is here. Started 
seeing subcommittee members--we are starting a few minutes 
early. And I know that they will be coming in. And we want to 
thank all the witnesses for being here today.
    So in connection with today's hearing, I want to ask for 
unanimous consent that any committee members who may be joining 
us be able to participate in the hearing with the understanding 
that all sitting subcommittee members will be recognized for 
questions prior to those not assigned to the subcommittee. So 
ordered, and without objection.
    We convene today to consider how the United States intends 
to secure the peace once ISIL [Islamic State of Iraq and the 
Levant] is defeated. This is a very important issue to the 
committee, to this subcommittee, and to me, the Ranking Member 
Moulton, and other members. It is essential and appropriate 
that we exercise proper oversight as our country's plans are 
formulated and funding is authorized.
    Following Operation Iraqi Freedom, the United States worked 
to reestablish civil institutions and rebuild the military and 
police forces in Iraq. Nonetheless, conditions in the country 
deteriorated, leaving a security void that ISIL managed to 
exploit. We owe it to our men and women in uniform to learn 
lessons from that experience so that history does not repeat 
itself.
    It is critical that we do all we can here in Congress to 
ensure a stable Iraq after ISIL is defeated. Today's hearing 
will offer members an opportunity to learn more about how the 
administration intends to achieve success beyond the 
battlefield.
    Our first panel of very insightful outside experts will 
discuss the broader strategic issues associated with ISIL's 
loss of territory and highlight critical issues that should be 
considered as the administration's Iraq policy evolves. Our 
second panel today will address the numerous challenges 
associated with stabilization and rebuilding in Iraq and 
discuss the status of U.S. government efforts to improve the 
political and security environment in Iraq.
    I now turn to my colleague, Ranking Member Moulton, for his 
introductory remarks.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 41.]

     STATEMENT OF HON. SETH MOULTON, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Moulton. Thank you, Madam Chairwoman. And I want to 
echo the comments on how fortunate we feel to have such a 
talented and distinguished panel here to help us understand 
these problems.
    Today the subcommittee will focus on the critically 
important task of securing the peace in Iraq after the defeat 
of ISIS [Islamic State of Iraq and Syria]. I echo Chairwoman 
Hartzler's frustration at securing appropriate administration 
witnesses to answer the full gamut of questions the Oversight 
and Investigations Subcommittee is within its purview to raise, 
but I am grateful for everyone's presence here today and 
ongoing service to our country.
    I also appreciate our outside witnesses who will bring 
considerable depth of expertise to bear on this subject, 
including Ambassador Crocker, whom I first met in Iraq while 
serving under General Petraeus. I think that is where I met 
you, as well, Ken.
    As we convene here today, Iraqi security forces supported 
by the U.S. advise and assist mission have succeeded in 
retaking most major population centers once controlled by 
ISIS--Fallujah, Ramadi, and Mosul, ISIS's power center in Iraq. 
Most recently, coalition-supported Iraqi forces seized back the 
city of Tal Afar in the northwestern corner of Iraq and only 
isolated ISIS strongholds remain outside of Hawija, Qaim, and 
other pockets along the Syria-Iraq border.
    Such victories have not been without a human toll. ISIS's 
brutal tactics, employing civilians as human shields, vehicle-
borne improvised explosive devices, and booby-trapped 
residential areas resulted in over 1,400 Iraqi troops killed 
and at least 7,000 wounded, according to our embassy in 
Baghdad. During the campaign, two American service members were 
killed and over 20 were wounded.
    The U.S. commander of the Combined Joint Task Force in 
charge of the counter-ISIS campaign, Lieutenant General Stephen 
Townsend, called it the, quote ``worst fighting he had seen in 
35 years'' end quote, of combat experience and likened it to 
Fallujah 2004 on steroids. Civilian losses have been greater 
still, with the latest U.N. [United Nations] estimates at 8,000 
killed and 1.2 million rendered homeless, displaced by the 
fighting.
    Despite the tragic human toll, I am encouraged by the 
progress we have made in partnership with Iraqi forces to 
defeat the scourge of ISIS and look forward to hearing from our 
witnesses an update on the final stages of the military 
campaign. As important and necessary as these operations are to 
militarily defeat ISIS, I remain concerned that without 
sufficient post-conflict planning and resourcing we will find 
ourselves and Iraqi forces condemned to re-fighting the same 
battles so many have already given their lives for in the past.
    At its core, what troubles Iraq are fundamentally political 
questions. Just as I disagreed with the Obama administration, I 
am again concerned that this new administration is not 
sufficiently prioritizing such underlying political dynamics.
    What does this mean? First and foremost, I am concerned 
Iraqi security forces may be woefully unprepared to provide 
security to Iraqi civilians and ensure displaced persons can 
return to their homes without fear of attack or retribution. 
Experts I have heard here from Washington and in Iraq have 
expressed worries of insufficient hold forces and police, 
compounded by the beleaguered state of Iraqi military units, 
reeling from the toll of the brutal counter-ISIS campaign.
    Without sufficient local security arrangements, we cannot 
expect for Iraq to be stabilized, for civilians to return to 
normalcy, and for communities to be defended against the 
emergence of a, quote ``ISIS 2.0'' or other militant groups. 
Moreover, without capable and professional security forces, we 
risk seeing a repeat of the same sectarian tensions leading to 
Sunni embitterment that provided fertile ground for the growth 
of ISIS in the first place.
    Beyond the provisioning of civilian security, key gaps and 
problems remain to be addressed, such as acute food insecurity, 
insufficient access to health care, destroyed infrastructure, 
degraded public services and utilities, newly inflamed 
grievances among local communities, and insufficient plans for 
governance arrangements in many areas.
    Both as a Marine infantry officer who worked side-by-side 
with Iraqis to turn the tide of the insurgency and now as a 
Congressman and ranking member of this Oversight and 
Investigations Subcommittee, I look forward to your testimony 
and hope to hear a proactive, whole-of-government strategy that 
represents the only chance of success.
    I cannot tell you how painful it is as an Iraq war veteran 
to see us fighting and refighting the same battles we fought 
and for which so many of our friends gave their lives. At this 
rate, my children will be fighting these same battles. We must 
hear from this administration how this time will be different, 
how this time you will ensure a political resolution so that 
the U.S. military doesn't have to keep coming back and cleaning 
up the mess every time Iraqi politics falls apart.
    Thank you, Chairwoman Hartzler, and I yield back.
    [The prepared statement of Mr. Moulton can be found in the 
Appendix on page 42.]
    Mrs. Hartzler. Thank you, Mr. Moulton.
    So I am pleased to recognize our witnesses we have for our 
first panel. They are very distinguished and we appreciate 
their time. We are joined by the Honorable Ryan Crocker, former 
Ambassador to Iraq, and currently serving as diplomat in 
residence in the Woodrow Wilson School at Princeton University. 
We have Dr. Kenneth Pollack, resident scholar at the American 
Enterprise Institute, and Dr. Marc Lynch, professor of 
political science at the Elliott School of International 
Affairs at The George Washington University.
    So, welcome. Ambassador Crocker, we will start with your 
statement.

   STATEMENT OF HON. RYAN CROCKER, FORMER AMBASSADOR TO IRAQ 
  (2007-2009), DIPLOMAT IN RESIDENCE, WOODROW WILSON SCHOOL, 
                      PRINCETON UNIVERSITY

    Ambassador Crocker. Thank you, Madam Chairwoman, Ranking 
Member Moulton, members of the subcommittee. It is an honor to 
be here today.
    I must say it is a lot more fun being on the outside panel 
than on the panel that will follow us. I think you both have 
hit on the essential fact here. The Islamic State is, in 
essence, not a military problem. Its existence is a symptom of 
a much deeper problem.
    I went through a couple of years in Iraq, 2007 to 2009, the 
time of the surge. Al Qaeda in Iraq, the forerunner of Islamic 
State, was a key target of ours and the Iraqis. But even at the 
height of the surge, we could never absolutely eliminate them. 
Badly weakened, but still there, parts and pockets of Mosul, 
and a fluid presence up the Euphrates River Valley.
    Why? Because, again, with all that the surge achieved 
politically, as well as militarily, we saw a period there when 
the Iraqi Arab Sunnis came back into government, when Prime 
Minister Maliki took on the Sadrist forces in Basra, throughout 
the south, and in Baghdad itself, but there still lingered an 
abiding mistrust on the part of some communities, the Sunni 
Arabs in particular, of what would happen next.
    And that gave Al Qaeda in Iraq space enough to survive. So 
here we are on the brink of a decisive military difficulty--or 
victory. But what we have to be able to do is win the peace. 
Madam Chairwoman, that is not going to happen unless this 
administration decides that Iraq is a national security 
priority.
    Sadly, if there is a chance to get this right, it will be 
in Iraq. Syria has, I am afraid, quite a ways to burn before 
you can talk about an effective political process there. And 
that is going to take a lot of sustained effort. It will 
require a Secretary of State who is willing to go to Baghdad, 
spend time there, get to know the politicians, get a feel for 
what is possible and what isn't, and in so doing have the full 
backing of the President.
    If we do less than that, I fear that we will see another 
slide downhill. We can look at Iraq itself or we can look at 
another example, say, Afghanistan after the defeat of the 
Soviets. We decided our work then was done. We pulled out. On 
the way out, we sanctioned Pakistan, who had been our most 
allied of allies, and that act incidentally reverberates today 
why the Pakistanis hedge their bets. They think we are going to 
pull out again. And I do commend the administration for making 
it quite clear that we are not talking about calendars anymore, 
but we are talking about conditions.
    So it is going to take a formidable political effort to 
bring things to a better place in Iraq. Madam Chairwoman, we 
are hardwired into their political system. I found during my 
time there that we could be the catalyst that made good things 
happen, but we would have to get something from one party 
conditionally, take that to the other party, and we found that 
when we did that some of the time they would give things to us 
to work that they couldn't do directly with each other.
    So, Madam Chairwoman, I understand that people in this 
country are tired of the never-ending wars in Iraq, now in 
Syria, that the Hill is tired of this conflict. I get it about 
being tired. I spent 7 years of my life post-9/11 in Pakistan, 
Iraq, and Afghanistan. So I know about tired.
    But there are worse things. When we decided that we would 
not intervene or continue our presence in Afghanistan, the 
totally predictable civil war broke out between rival Afghan 
factions, culminating in the victory of the Taliban, and that 
was the road to
9/11. Policies have consequences. The absence of policies have 
consequences. So again, I commend you, Madam Chairwoman, the 
ranking member, for bringing us together at this time to 
concentrate on how we might get it right.
    Thank you, Madam Chairwoman.
    [The prepared statement of Ambassador Crocker can be found 
in the Appendix on page 44.]
    Mrs. Hartzler. Thank you, Ambassador.
    Dr. Pollack.

STATEMENT OF DR. KENNETH M. POLLACK, RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Dr. Pollack. Like my predecessor, Ambassador Crocker, and 
as you all pointed out in your opening statements, I too am 
very concerned about the political repercussions of the future 
of Iraq and American policy there.
    I guess I am heartened that we Americans now duly intone 
that victory in Iraq or any of the Middle East wars will not be 
won by military forces alone. But I am nevertheless 
disappointed and frustrated that we rarely ever walk--sorry, 
walk the walk even though we have learned to talk the talk. The 
one time when we actually got it right was, of course, when 
Congressman Moulton and Ambassador Crocker were in Iraq. And I 
do not see the willingness of the level of preparations on the 
part of this administration that we saw at that time.
    I would like to use my opening statement to just lay the 
groundwork for what I envision as being necessary for a post-
Daesh [ISIS] American commitment to Iraq. And I am going to be 
very brief to just sketch out the broad framework. But I think 
it is important to start talking through the details of what is 
going to be necessary, because again, as Ambassador Crocker 
knows better than any of us, in Iraq in particular, the devil 
is in the details. To talk about things just kind of in a broad 
airy-fairy way and simply say that we need to be there is not 
going to be helpful.
    We need to talk about what it means to be there. We need to 
talk about what engagement looks like and in particular--and, 
again, as both you, Madam Chairwoman, and Congressman Moulton, 
and Ambassador Crocker have all emphasized--we need to be 
focused on Iraq's politics and how the United States can help 
move Iraq's politics forward.
    Now, all that said, it does start with the military side. 
Yes, we have won an important victory over Daesh. That is a 
useful step forward. But we all know that Iraq's security is 
not going to simply be perfect moving forward. It is going to 
require residual efforts, and in particular it is going to 
require a residual American force in the country.
    That force's mission will be primarily political. Yes, 
there are military things that it can and should do, but we 
need to focus on its political role as being the most important 
of all, and that--it needs to be able to reassure Iraqis that 
force will not be used against them, including by their own 
government or by quasi-governmental entities.
    That force needs to be able to prevent the re-
politicization of the Iraqi military. And it needs to maintain 
the combat and logistical capabilities of the Iraqi military 
that we have so painstakingly built and then abandoned and 
rebuilt repeatedly but that is critical to allowing the Iraqi 
government to maintain a monopoly on the use of violence.
    All of that is going to require a stay-behind American 
force, and I would argue that it needs to be bigger rather than 
smaller to serve these political purposes. If you said to me we 
would put 25,000 or keep 25,000 troops in Iraq, I would throw a 
party. I imagine that that might be a bridge too far 
politically, but I think the 10,000 would be perfectly 
adequate. But we need to be thinking fairly large for these 
political reasons.
    Shifting quickly over to the political and economic 
dimensions, which are, as we have all agreed, far more 
important, we need to recognize that we have a moment now. 
Iraqis are gleeful that they have defeated ISIS. They are 
desirous of a better future. They want their government to work 
better. And they are hopeful that they will get it, but they 
have been frustrated so many times in the past, we shouldn't 
assume that they are going to remain patient for all that long. 
And the problem is, when they grow frustrated, they begin 
taking unilateral actions that lead them back down the path of 
civil war.
    We need to help the Iraqi government to start to deliver 
right now, soon, in particular, before their elections. We 
can't rebuild the country completely. We cannot even help the 
Iraqis do so. We can't turn it into Switzerland. What we can do 
is to start programs that are going to give the Iraqis a sense 
of progress moving forward, a sense that their government can 
deliver, a sense that the United States is committed to them 
and their government, and the hope for a better future.
    If we can do that--and I have outlined a number of specific 
projects in my written testimony--if we can do that moving 
forward, we will keep the Iraqis committed to this political 
process. That is what we have to have, that is what we need for 
Iraq to succeed over the long term, that kind of a start. If we 
don't, we are likely to be repeating our mistakes all over 
again.
    [The prepared statement of Dr. Pollack can be found in the 
Appendix on page 52.]
    Mrs. Hartzler. Thank you very much. Dr. Lynch.

 STATEMENT OF DR. MARC LYNCH, PROFESSOR OF POLITICAL SCIENCE, 
                THE GEORGE WASHINGTON UNIVERSITY

    Dr. Lynch. Thank you, Madam Chairwoman, and Ranking Member 
Moulton. It is a real honor to be here on a panel with 
Ambassador Crocker and Ken Pollack. And it is quite an 
experience to be sitting here in 2017 and largely agree with 
each other on the major issues, which would not have happened 
in 2007. And that I think is grounds for hope, that there 
actually is, I think, a bipartisan sense now of the urgency of 
having a sustained commitment to getting Iraq right. And I 
think that is something to build upon.
    What is more, as we have heard, I think there is also 
almost a unanimous consensus among analysts across all stripes 
that if we hope to actually contain, degrade, and defeat ISIS, 
we are going to need some kind of sustained political economic 
reconstruction strategy and the idea of the primacy of the 
political is something which I think was not present before. 
And again, this is grounds for hope. I think we agree on the 
diagnosis in ways which I think was not true before.
    So in my written testimony, I offer I think some fairly 
detailed discussion of a number of issues. I just want to 
highlight several which I think would be useful for us to think 
about now and hopefully have time to discuss.
    The first is, as Ken said, that there is a window of 
opportunity now, but it won't last for long. I think that we 
recently published--in the page I edit for the Washington Post, 
we published a piece by an Iraqi pollster who found really 
quite remarkable findings, found 51 percent of Sunnis now 
saying that the country is going in the right direction, 71 
percent of Sunnis saying that they had favorable views of Prime 
Minister Abadi. In 2014, the same pollster found 5 percent of 
Sunnis said the same about Prime Minister Maliki.
    This is directly and clearly tied to the national campaign 
to defeat ISIS and liberate those areas. But it also is 
fleeting, because the conditions under which these people who 
have been liberated, conditions they are living in are 
terrible. They are being sustained by a massive international 
humanitarian effort which has been supported and coordinated 
extremely well by the coalition, but in a sense it is standing 
in for the Iraqi state and providing the necessary means of 
survival for the millions of people who would be liberated from 
ISIS.
    This is a testament to a successful coordination of an 
unprecedented humanitarian response, but it is also dangerous, 
because when the next humanitarian crisis emerges and the 
international NGOs [nongovernmental organizations] move on, who 
is going to be taking care of all of these people who are not 
currently being tied to the Iraqi state?
    And so one of the most important things I think we need to 
have on the agenda is a sustained transition strategy moving 
from disaster relief and crisis relief to a sustainable 
standard for providing services, goods, and critically, 
governance for the people in these liberated areas. I know 
planning of that kind is going on now. It is extremely 
important that it be fully funded and made equal and parallel 
to the military track.
    I think that we all probably have thoughts on the impact of 
the Kurdish referendum and the crisis that I think it has 
sparked. I think at this point all we need to say is that it is 
urgently necessary that we take whatever effort is needed to 
calm things down and to try and stop the politicians on all 
sides, both inside the country and outside the country, from 
taking escalatory steps. We have to keep the dialogue going. 
And I think this is pretty important for maintaining the 
campaign against ISIS.
    I think that for all of the military issues, I think that I 
would come back again and again to the fundamental problem, 
which is a crisis of state capacity in Iraq. We have 
consistently seen the inability to construct state institutions 
which are accountable, effective, authoritative, and honest.
    And I think this is at the root of Sunni alienation; this 
is at the root of the inability of the government of Iraq to 
provide vital services, electricity, health, everything that 
you might think of, not necessarily in the capital, but in the 
rural areas and the Sunni areas, the places where you are 
likely to see a reimagined ISIS insurgency take root.
    And so I think that it is easy to say that we need a whole-
of-government approach, we need to have the politics and the 
economics, along with the military, but I would actually hope 
that we take seriously as a government the actual primacy of 
these issues. If we do not find ways to actually have the Iraqi 
government with our assistance provide sustainable and 
meaningful quality of life, accountable, transparent, and 
honest governance to the people across the core constituencies 
of the regime, then we are going to see almost inevitably major 
problems to come.
    The other point that I would like to make, which I think is 
the one area where we might have some disagreements on the 
panel, is that of course what happens in Iraq is unfolding in 
the midst of ongoing political tension and competition with 
Iran. And there are major issues in how we should be thinking 
about our relationship with Iran, the nuclear deal, the spread 
of Shiite militias. These are important and vital issues.
    But I would simply put out there for discussion that Iraq 
is the single worst place where we could attempt to push back 
on Iranian influence in the region, and that we should 
prioritize the stabilization of Iraq and trying to maintain the 
fragile Iraqi political consensus first, and find other arenas 
where we might try and push back or contain Iranian influence.
    Thank you.
    [The prepared statement of Dr. Lynch can be found in the 
Appendix on page 69.]
    Mrs. Hartzler. Thank you, Dr. Lynch. And you hit on there 
in your last comment a point that I was going to start off with 
my questioning, and that was dealing with Iran.
    It has been interesting to watch their burgeoning role 
there in this recent conflict and then taking so much control 
of various militias and ``assisting'' quote, unquote. But, 
Ambassador Crocker, I thought you had some interesting comments 
in your testimony that says some in the country believe that 
cooperation with Iran in confronting ISIL is possible and 
desirable. He said it is neither; Iran does not feel threatened 
by ISIL.
    And then you go on that these units are potentially greater 
threat to Iraqi stability and our interests than ISIL was. That 
really--this paragraph jumped out at me. So I would like to 
hear from you your thoughts on the threat potentially of Iran 
and the advances that they have made in the country of Iraq and 
then how you think we ought to deal with that, and then I will 
probably turn to the other witnesses, too, to kind of get an 
overview of this situation, because as you said, Dr. Lynch, 
this is a very important issue we have to deal with.
    Ambassador Crocker. Thank you, Madam Chairwoman. It is 
indeed a critical issue.
    What we find today is that Iranian influence in Iraq is at 
an all-time high, both directly and indirectly through the so-
called Popular Mobilization Units that are far more under the 
control of Tehran than they are of Baghdad. It is important, I 
think, to take a step back and ask why. Why are the Iranians 
doing this?
    Biography and history are important. Qasem Soleimani, the 
leader of Iran's Quds Force, their external operations element, 
commissioned in the Iranian army a couple of months before Iraq 
invaded Iran. He served through 8 years of that horrific war. 
It would be like a British subaltern going through the Western 
Front not for 4 years, but for 8.
    So what do people like Qasem Soleimani think about when 
they think about Iraq? Never again. Never again will there be 
an Iraq that could present an existential threat to the Iranian 
nation. So their interest is not stability in Iraq. It is the 
opposite, to maintain a maximum level of influence, but also to 
ensure that the Iraqi government can never quite get its 
balance. And they are doing a pretty good job of it.
    So while I certainly don't urge a military confrontation 
with Iran in Iraq, I do think we need to be clear-eyed about 
this. Their objectives in no way harmonize with ours. And we 
are going to have to figure out how we can ramp up and give the 
Iraqi government and people some choices over influence that 
they currently don't have, because with our absence, the 
Iranian presence is really the only game in town.
    Mrs. Hartzler. Thank you. Dr. Pollack, do you have some 
thoughts on that?
    Dr. Pollack. Thank you very much, Madam Chairwoman.
    I feel like I may be somewhere in between my two panelists 
both on this issue as well as physically. I start by agreeing 
with Ambassador Crocker that Iran's interests are ultimately 
not our interest in Iraq, that Iran's influence there has grown 
disproportionately, and that ultimately it should be a goal of 
American policy to limit Iran's influence in Iraq, recognizing 
that it will never be zero because of their proximity to one 
another.
    That said, I also felt very strongly about some of Marc 
Lynch's comments. I think that Dr. Lynch is absolutely correct 
that we are in a precarious moment. And I don't think that 
Ambassador Crocker was saying otherwise. This is part of the 
trick moving forward in Iraq, which is right now Iran does have 
enormous influence in Iraq. Right now, a great many Iraqi 
politicians are very frightened of the Iranians. And it is 
going to take them a lot to get them to the point where they 
trust us enough to simply give the stiff arm to the Iranians.
    I also agree that while I am a strong proponent of pushing 
back on the Iranians across the region--in fact, I am 
testifying tomorrow before the House Foreign Affairs Committee 
on exactly that topic--I agree with the statement that Dr. 
Lynch made that Iraq is not the place for that, right?
    There are a lot of things that we need to do in Iraq. They 
are important to us on their own terms. Iraq is not the right 
arena for competition with Iran because of Iran's greater 
influence there and the fragility of the Iraqi system.
    I will simply say that I think that where we ought to focus 
our efforts, and again I think this is very much consonant both 
with Ambassador Crocker's remarks and with his own experience, 
is on building up the Iraqi government and helping the Iraqis 
to re-achieve their own unity, certainly among Arab, Sunni, and 
Shia.
    You know, the moment where we had the greatest success 
against Iran in Iraq after the 2003 invasion was in the spring 
of 2008, when the Iraqi government then led by Prime Minister 
Nouri al-Maliki, sent mostly Sunni brigades down to Basra to 
drive the Shia Jaish al-Mahdi, backed by Iran, out of the Shia 
city of Basra.
    And what was so amazing to me--and I was in Basra right 
after the operation--was how the Shia welcomed these mostly 
Sunni troops, because they saw them as simply Iraqis who were 
here to drive out the foreigners, the Persians. If we can get 
the Iraqis back to that point, where they once again feel like 
Iraqis and not just Sunni and Shia, they will do a far more 
effective job than we can in driving the Iranians out.
    The trick is exactly as Ambassador Crocker pointed out to 
be able to do that and to do it at a moment when the Iranians 
are very influential in Iraq and watching to see what our next 
move is.
    Mrs. Hartzler. Thank you very much. Dr. Lynch.
    Dr. Lynch. Great, thank you. And I think I am not as far 
away from Ken on the analysis as I am physically. So that is 
good.
    So I think that you have to begin from the recognition that 
as Ambassador Crocker said, Iran's role in Iraq is not going to 
disappear, for reasons of geography, of sectarian affiliation, 
of deep economic investment, widespread personal relationships, 
and their cultivation of a portfolio of political allies and 
proxies not only the Shiite side, but across the entire 
spectrum. Iran I think has done a very good job of embedding 
itself deeply in the texture and the fabric of Iraqi politics.
    But this is not uncontroversial. And we actually are in a 
moment where there is increasing sign of resistance within 
unexpected communities to a dominant Iranian role; not the 
existence of an Iranian role, but a dominant Iranian role. And 
here I think is where the place for the United States is less, 
in my opinion, about pushing back on Iran directly as it is 
building up the Iraqi state and giving a professional 
bureaucracy, a professional military, which can become the 
foundation of the kind of national politics that Dr. Pollack 
was describing.
    And there I think there are real things that we can do 
which do not have to be cast in a confrontational way and 
don't, hopefully, have the risk of overturning this extremely 
delicate political moment. Of course, Ambassador Crocker is 
right about this, as he is about all things, in terms of the 
lack of strategic harmony between the United States and Iran in 
Iraq, but I would say that in the crisis moment of 2014, I 
think this was less the case.
    When it appeared that Baghdad was at the brink of falling 
and that there was a real perception that the whole thing could 
come falling apart, there was a convergence on the need to 
protect the Iraqi state, prevent the advance of ISIS, and work 
together in a pragmatic way.
    And this was something which was never going to last, but 
if you hadn't seen the Popular Mobilization Units going to the 
front at the time they did, we could be having a very different 
conversation right now about a shattered and lost Iraqi state. 
And that is an important thing to remember.
    Not all of the PMF [Popular Mobilization Forces] units are 
the same. Some of them are I would say functionally the 
equivalent of the Sahwa, the Awakening Brigades. Some of them 
are straight-up Iranian proxy forces. And having a 
differentiated view of that is quite important.
    When you have Muqtada al-Sadr going to Saudi Arabia, when 
you have the appearance of outreach from key Shia 
constituencies out into the Sunni Arab world, these are 
important things which I think should be used diplomatically 
and not dismissed purely on sectarian grounds.
    And so I think that what we should be thinking about is 
creating a place for the United States to be the actor that is 
supporting governance in Iraq and providing services and 
supporting a project of state first, politics first, rather 
than trying to compete with Iran on its own terms in those 
sorts of ways.
    Mrs. Hartzler. Thank you. I am going to turn to the ranking 
member now, but I will want to follow up at some point if you 
don't address it in--the willingness of the Iranians to allow 
for a consolidated government to form with significant amount 
of Sunni involvement in that. But we can come back later.
    Now turn to Ranking Member Moulton.
    Mr. Moulton. Thank you, Chairwoman Hartzler.
    And as someone who witnessed firsthand the influence of 
Iran in Iraqi politics and, frankly, in military affairs, I 
just want to emphasize my agreement with the importance of 
these questions. It is hard, I think, to see how if Iran is 
fundamentally opposed to our interests in building an Iraqi 
state, we are going to make this work without confronting that 
threat, as well. So thank you very much.
    Gentlemen, you have I think all agreed, remarkably so, on 
the importance of the primacy, to use one of your words, of a 
political effort here and in building the Iraqi state. You have 
also--Ken, you talked about--Dr. Pollack, you talked about the 
value of 10,000 troops, maybe even 25,000 troops. We are going 
to ask the administration from their witnesses how they are 
prepared to execute such a political plan or if they are 
prepared to do so at all.
    But could you talk for a minute each of you about why this 
is worth it? Why is it worth the United States investment to 
put in 10,000 troops if their effort--even if their effort is 
mainly political? Why is it worth the investment of State 
Department resources and aid and development resources to build 
up the Iraqi state?
    We have been there a long time. And many Americans are 
asking, why don't we just pull out and go home? And, Ambassador 
Crocker, you referred to this a little bit in your 
introduction, but just explain to the American people why this 
investment is worthwhile and why now is the right time to make 
it. Ambassador Crocker, you are welcome to start. Thank you.
    Ambassador Crocker. Thank you, Congressman Moulton. What we 
are seeing in the region, potentially in Iraq, is not just the 
overthrow of regimes, but the collapse of states. And sadly, 
when states collapse, other forces will fill the void, as we 
have seen. I would call it a failure of governance throughout 
the region. The modern Middle East is about 100 years old. In 
that time, that chronic failure of governance has led to crisis 
after crisis, and I would argue has brought the region to the 
point it is at today, which is deeply dangerous not only for 
the region, but for the world, including ourselves.
    So there is a fundamental choice here. Either we continue 
as we have been doing, in which case I think you are going to 
see Islamic State 2.0, as Islamic State was Al Qaeda in Iraq 
2.0. That is not in our interests any more than watching 
Afghanistan spiral down in the 1990s, again, the rise of the 
Taliban and the road to 9/11.
    Congressman, I have heard much in my career about a failure 
of intelligence leading to this or that. There is some truth in 
it. But it is not the whole truth. I call it a failure of 
imagination that we cannot imagine how bad things can really 
get. We couldn't imagine that Iranian- and Syrian-backed 
elements in Lebanon would blow up first the American embassy--I 
was a survivor of that attack--and later the Marine barracks.
    We can't imagine how Iran could move into Iraq through the 
creation of these proxies. And Dr. Lynch is absolutely right, 
there is a spectrum here. But the weight on that spectrum is 
toward the Iranian-influenced units. We----
    Mr. Moulton. Mr. Ambassador, is there anyone in the United 
States government who imagined how bad Syria would be today?
    Ambassador Crocker. In a word, Congressman, no. And that is 
what I mean about a failure of imagination. Analysts need to 
think outside the box. They need to think as though there were 
no box. I could not have imagined when I left Iraq in the early 
spring of 2009 that it would descend to the point it is at now. 
And it is a sharp reminder that you don't end wars by 
withdrawing your forces. You simply cede the battlespace to 
others more determined.
    Mr. Moulton. Thank you, Mr. Ambassador. Dr. Pollack.
    Dr. Pollack. Thank you very much, Congressman. I am 
privileged to get to go around this country and give talks on 
the Middle East, and I get asked this question frequently. And 
I will give you the answer more or less that I give them.
    The first answer that I give is the relationship to our 
economy. And I have got to use a four-letter word. It is 
actually a three-letter word, but it comes out as a four-letter 
word, and that is oil. We are all infatuated with shale. The 
truth of the matter is, though, that the world still runs on 
oil and that Middle East is a major producer of oil, and Iraq 
currently is the fourth-largest oil producer in the world.
    Now, could North American shale make up for the complete 
loss of Iraqi oil? Maybe. I don't think that anybody really 
wants to find out. And what we have seen in the past is that 
oil crises have been major problems for the U.S. economy, 
causing some of the worst post-war recessions that we have 
experienced. Until we can do better with weaning ourselves off 
of oil and finding new sources of it, the Middle East is going 
to matter and Iraq is going to be critical.
    Beyond that is the point that Ambassador Crocker was 
making. When I go around the country, I typically--you have a 
line that I have been using for over a decade about how the 
United States is not like an American city in the southwest. 
But given the tragic events that have unfolded there in the 
last couple of days, I am going to refrain from making that 
comparison and simply say that the problem that we have found 
with civil wars is that they spread. They don't stay contained.
    There is a very extensive body of scholarly work that 
demonstrates what scholars call the contagion effect, that 
civil wars in one country destabilize and then cause civil wars 
in neighboring states. As you pointed out, Syria helped push 
Iraq back into civil war, and together they have created a 
mini-civil war in Turkey. In its day, civil war between 
Israelis and Palestinians caused civil war in Jordan, which 
then caused civil war in Lebanon, which then caused civil war 
in Syria.
    And as you also alluded to, Ambassador Crocker's point 
about a failure of imagination, I have got a pretty good 
imagination. And back in 2012, having studied deeply on the 
literature of civil wars, I was thinking about what the Syrian 
civil war could mean for the Middle East and for the world, and 
I remember as I was writing a piece asking myself, should I 
point out that if this got really bad, it could start to affect 
Europe? And I decided I shouldn't, because people would think 
my imagination was running away with itself.
    Well, it not only affected Europe, it helped cause the 
British to pull out of the EU [European Union], okay? Even I 
couldn't imagine that. Right? But that is the problem with 
these kinds of civil wars. They don't stay contained. They 
spill over. If we simply walk away from Iraq and allow it to 
descend back into civil war, we don't know what comes next. 
Kuwait, Jordan, maybe Iran, maybe we would think that was good, 
at least in the short run. Saudi Arabia. These are countries 
which at some point we can't possibly accept. They will gut our 
economy.
    Mr. Moulton. Thank you, Dr. Pollack. Dr. Lynch.
    Dr. Lynch. Thank you. So for the record, I don't agree that 
we should have 10,000 troops in Iraq or 25,000 troops. I don't 
think that we have to go to zero, and I think there is a good 
argument made for the residual--kind of a residual force of 
trainers and embedded kind of small units.
    But I don't think that we should be thinking about it in 
terms of putting a long-term 10,000, 25,000 permanent U.S. 
military garrison in Iraq. I think that would actually put us 
back in an unhealthy place where we were before the withdrawal.
    I think what we have now is a situation where we are there 
at the request of the Iraqi government. There is actually 
political support at a fairly wide level for the American 
presence there. And we have a bipartisan support for what we 
have in Iraq now. So the politics are in some ways right for a 
small residual force for the United States in both the United 
States and in Iraq.
    But moving to have this kind of long-term, large-scale U.S. 
military presence I think risks unsettling both of those 
consensuses that have become a flashpoint for political 
controversy here in the United States and would draw a great 
deal of unwanted attention inside of Iraq to this renewed 
notion of a permanent American military presence. I actually 
think that is not a good idea, but we can continue to discuss 
that.
    On the question of why it is worth it, I want to also 
perhaps be a little contrary here, as well, to break the comity 
that we have had to this point. I think that this is ultimately 
up to the Iraqis to choose. This is not an American decision. 
If the Iraqis choose to create a sectarian and exclusionary 
state, to not confront corruption, to allow the rural and Sunni 
areas to go without governance and to not try and meet the 
needs of their Sunni population, then nothing we do can help 
them. We could have 10,000 troops, we could have 50,000 troops. 
We could do almost anything and it won't help.
    The choice is up to them. And the hope that we have is that 
after having faced the crisis of 2014, they are now willing and 
able to make those choices, to create the kind of functional 
state which can partner with the United States on equal terms. 
And I think that is the direction we need to be moving in, is 
having a partnership which is based upon not just keeping a 
presence in Iraq no matter what, but to have it based on the 
notion that this is the type of state that we want to support 
and giving the types of assistance that can actually support 
that kind of state. Different way of thinking about it, but I 
think an important difference.
    Mr. Moulton. Dr. Lynch, I think I understand your position. 
Do you agree that we have a national security interest in the 
Middle East and in Iraq?
    Dr. Lynch. Oh, absolutely. And I agree 100 percent with----
    Mr. Moulton. But do you think ultimately we should let the 
Iraqis decide on whether we pursue that national security 
interest?
    Dr. Lynch. No. My point is that if the Iraqis make the 
wrong choices in terms of the type of state they build, then we 
can waste an enormous amount of American blood and treasure 
accomplishing very little, because ultimately if they recreate 
the sectarianism, corruption, and state failure which led to 
2014, then we cannot achieve our national security goals as I 
think we all agree that they should be defined.
    Mr. Moulton. Do you think we can have any influence on that 
decision?
    Dr. Lynch. We can have influence on it. And that I think is 
what I was trying to say about the political underpinnings that 
now exist for a sustained partnership between this Iraqi 
government and the United States. And otherwise I wouldn't be 
recommending that we have this kind of long-term commitment and 
focusing on building the economic, political, and military 
degrees of cooperation. I absolutely think that this is a 
moment where we do have that kind of influence and we certainly 
have the interest to sustain it.
    But I want to warn against unconditional commitment even if 
you don't have the foundations that would make it possible. 
That is what I am most worried about, is that by giving a blank 
check, we could enable exactly the kinds of dysfunction that 
created 2014 in the first place.
    Mr. Moulton. Thank you. And if I may just conclude with one 
very brief question, if you could answer in one sentence or 
less, just each of you, you have agreed so much on the need for 
the primacy of a political commitment and how that must lead 
our efforts in all that we do.
    I was a frequent critic of the Obama administration because 
I didn't feel that they understood this. And they responded to 
the ISIS crisis by just sending military trainers in, which 
didn't really do much to fix Iraqi politics. We got lucky with 
the new prime minister, but I don't think that we can claim 
much credit for the political improvement that has happened 
there.
    Do you think this administration understands this and is 
prepared to make a political commitment the prime commitment? 
Ambassador Crocker.
    Ambassador Crocker. Yes. I do think that is the case. When 
you look at leaders like Secretary Mattis, he certainly knows 
Iraq up close and personal. The national security adviser, H.R. 
McMaster, the same, both Iraq and Afghanistan.
    Mr. Moulton. Dr. Pollack, do you agree?
    Dr. Pollack. I will perhaps refine Ryan's answer slightly 
and say I think that there are those in this administration who 
absolutely understand it and are absolutely committed, but they 
don't seem to yet have a decision made about what their policy 
is going to be.
    Mr. Moulton. Dr. Lynch.
    Dr. Lynch. I have no idea.
    Mr. Moulton. Thank you, Madam Chairwoman.
    Mrs. Hartzler. Thank you. Representative Scott of Georgia.
    Mr. Scott. Thank you, Madam Chair. Gentlemen, thank you for 
being here.
    As we talk about securing the peace, it seems to me that 
the more pressure we put on these groups in one area, they 
simply move to other areas of ungoverned territory, and there 
is certainly a tremendous number of areas where they can go in 
northeast Africa, the Middle East, where they can--it seems 
remobilize, re-equip, and come back with maybe a different goal 
and different strategy.
    So my question revolves around that challenge. As we--what 
would you suggest the best path is to stop what I would call 
the remobilization or the relocation of the terrorist 
organizations, where they are able to regroup and come back and 
attack in another country?
    Ambassador Crocker. It is an important question, 
Congressman. In one sense, if we can keep them moving around, 
that keeps them off-balance, but we would have to, again, have 
the resolve, if they are relocating somewhere else where there 
is no effective state, pursue them there, not by sending in the 
101st, but there are other platforms. You know, the more we can 
keep them on the defensive, the less likely they are to have 
the time and the space to plan another major attack into Europe 
or, God forbid, into this country.
    So, again, I would like to say that we could find a way to 
eliminate this scourge. I don't think that is going to happen 
anytime soon, but we sure as heck can keep them off-balance, we 
can trip them so that they have no safe place ultimately in 
which they can plan strategic-level attacks.
    Dr. Lynch. I think, Representative Scott, that is a great 
question. And I think it gets to the heart of having to place 
Iraq within a full-scale regional and international strategy. 
And so what my comments about trying to build the capacity of 
the Iraqi state should be read as part of a much wider strategy 
of trying to rebuild states across the region, and that 
includes not just rebuilding militaries and counterterrorism 
units, but actually building governance and actually building 
accountable states which are responsive to their people that 
can provide and deliver services.
    And so I think that I would absolutely think that you are 
putting your finger right on the problem with a shattered 
Middle East, not just a shattered Iraq. That said, I think Iraq 
is actually a distinctively important place for both Al Qaeda 
and for ISIS. This is where Al Qaeda transformed for the first 
time into a serious insurgency back with Zarqawi. This is where 
the remnants of that insurgency became the Islamic State and 
were able to move into Syria and take over these parts of Iraq.
    I think that a defeat and removal or at least a strategic 
defeat of the Islamic State in Iraq will have much greater 
impact on its appeal and attractiveness and power across the 
rest of the world than pretty much any other place.
    Dr. Pollack. Congressman Scott, I will simply add, first, I 
agree very much with the points that Dr. Lynch made. I think he 
has got it spot on. I will start by saying that we need to 
separate out two different problems, the problems of the civil 
wars in Iraq, Syria for that matter, and the problem of 
transnational terrorism. They are ultimately related but 
distinct topics.
    And I will start by saying the line--to use a line from a 
friend of mine within the Trump administration, it is not the 
case that Iraq and Syria are in civil war because ISIS is 
there. ISIS is there because Iraq and Syria are in civil war.
    Mr. Scott. That is right.
    Dr. Pollack. And so point number one is, we do need to 
stabilize these different countries. At the end of the day, 
though, you are absolutely right, Congressman, there will 
always be ungoverned spaces on the map. And the terrorist 
groups will always seek refuge there.
    The hope has to be that if we can deny them recruits, 
because there aren't large numbers of people in places like the 
Middle East who are desperately unhappy and looking to kill 
someone as a result of that, you can cut off the flow of 
oxygen, you can diminish their strength, and then both 
defensive measures, like those that we put in place after 9/11, 
and offensive measures, such as special forces operations, 
drone strikes, et cetera, can diminish the threat to the point 
where it isn't significant at all.
    Mr. Scott. Madam Chair, I am almost out of time. One of the 
other things I think that we need to talk through is whether or 
not when we have small pockets where we have 10 or 15 or 20 
that we believe to be or know to be through intelligence part 
of one of the terrorist organizations, that we should go ahead 
and take them out prior to them recruiting and becoming a 
significantly larger and more capable group. It seems to me 
that we would do better to--if we know they are what they are, 
we are not going to fix that, so we might as well help the rest 
of the world. Thank you.
    Mrs. Hartzler. Thank you. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Madam Chair.
    Dr. Pollack, you stated about the stay behind and an 
indeterminate amount of time. This is the second time today we 
have heard the issue of our troops staying behind. Afghanistan 
was the other issue earlier today.
    And I don't know what is going to happen in western Syria 
especially, but if we have potential there, then we have the 
Kurdish Iraqi situation, and are we going to be peacekeepers 
along that? Or how are we going to get the U.N. involved?
    So what does stay behind mean? And what is the implications 
of that on the geopolitical issues within that area?
    Dr. Pollack. Thanks very much, Congressman. And I think 
this is an important set of questions for this committee in 
particular to dig into.
    As I noted earlier, Iraq is a quintessential civil war. We 
know a lot about these civil wars. We know a lot about how to 
bring them to peaceful ends and prevent them from recurring. 
What the history of these civil wars have demonstrated over and 
over and over again is that you need to have three conditions 
in place. One, what is called a hurting stalemate, where none 
of the groups believes that they can win a military victory, 
and in fact they have real incentives to stop fighting.
    Second, there needs to be a political power-sharing 
arrangement. And third, there needs to be some institution that 
remains in place for a period of time, typically 10 to 20 
years, that guarantees or at least reassures people that 
conditions one and two will continue to obtain. Historically, 
the best institution for that is an external peacekeeping 
force.
    And I would argue that that is, at least in Iraq--I am not 
an Afghan expert, I am not going to speak to Afghanistan--that 
is a different mission. It is a war in a very different state 
of affairs. But in Iraq, that is how we should be thinking 
about the U.S. force there, as a peacekeeping force.
    What we have seen is, peacekeeping forces need to start 
with a certain size to establish presence. And my point about 
the numbers is driven by State Department--sorry, by CENTCOM 
[U.S. Central Command] and DOD [Department of Defense] planning 
for the stay behind force. In 2009, 2010, 2011, the actual 
military force in Iraq led by General Lloyd Austin formulated a 
plan. They believed that the right number was somewhere between 
22,000 and 25,000 troops to maintain that presence. The 
Department of Defense refined that and said we think we can do 
it with 10,000 troops.
    I think that those numbers are more or less correct, given 
where Iraq is today. Now, over time, I suspect that those 
numbers can come down, because what you see in these civil wars 
is that over time the communities rebuild their trust and that 
presence can become increasingly symbolic. So this is not 
Korea. We are not going to need a large force there ready to 
fight a major war at a moment's notice.
    But what we do need to be thinking about is the political 
role of these troops in reassuring Iraqis that they are not 
going to have violence used against them, that their military 
is not going to be re-politicized, and their military isn't 
going to lose the capability to put down bad actors when it is 
necessary to do so.
    And as I said, I think that the numbers formulated first by 
USF-I [U.S. Forces-Iraq], General Austin and his men, and then 
refined by the Department of Defense, are exactly where we 
ought to be thinking. Those were the right numbers at exactly 
the same moment in time.
    Mr. O'Halleran. Thank you, Doctor.
    Ambassador Crocker, Mr. Scott brought up the issue 
concerning other locations in the world about terrorism. And we 
have a significant amount of--a lot of this is going to be 
requiring State Department work. The military can't do 
everything, and we would rather have no war than a war.
    So do you feel that the current proposed cuts to the State 
Department, given North Korea and all the other issues going on 
around this world, are a position that we should be taking?
    Ambassador Crocker. Thank you for asking that, Congressman. 
In a word, no. What we are seeing, frankly, is not simply a 
budget cut in megatons. We were seeing, I think, an effort to 
deconstruct the State Department and the Foreign Service.
    And I can tell you, if that is not reversed, this is 
something we are going to be paying for, for a very long time. 
If we have to cut back our intake, then you are going to have 
that gap moving forward for the next 20 years, where you don't 
have the senior officer cadre who are fluent in foreign 
languages, who know these countries and cultures, who know how 
to deal with it.
    So I can't put it strongly enough. This is a very, very 
serious issue. If we don't want to have to fight a whole lot 
more wars, then you need a strong, well-resourced Foreign 
Service to go out there and do what may be possible to see that 
the troops don't have to come in.
    Mr. O'Halleran. Thank you, Madam Chair. I yield.
    Mrs. Hartzler. Thank you. Representative Cheney.
    Ms. Cheney. Thank you, Madam Chairwoman. And thanks very 
much to all of the witnesses here today.
    Ambassador Crocker and I had the privilege of serving 
together in the State Department. And, Ambassador, you know 
that I think you are one of the wisest, most thoughtful members 
of the Foreign Service we have. And I am very grateful for your 
appearance here today and for your testimony.
    Could you talk a little bit about the connection and the 
relationship between our ability as a nation to influence 
political events in a place like Iraq and our troops? And in 
particular, I am thinking about as we surged in 2007, what that 
meant in terms of our leverage in the country, and how you try 
to replicate that same kind of political leverage in an 
environment in which we are not going to have that number of 
troops on the ground, certainly.
    But how do you make sure that the United States, in 
addition to the--reversing the kinds of cuts that you have 
talked about, but having the political leverage, is it possible 
to have the kind of political leverage with all the sides that 
would be necessary for a political solution in the absence of 
the kind of military presence that we saw at the moment when 
our leverage was highest?
    Ambassador Crocker. Thank you, Congresswoman. And I must 
say, it is very nice to see you sitting there.
    We will not have that level of leverage again. But I think 
we may not need that level. The Iraqi forces after their 
horrific collapse in 2014 have pulled themselves back together. 
It is true that the Counter Terrorism Service is carrying out a 
major part of this. But, you know, there has been progress over 
these last 2 or 3 years with the Iraqi army generally. So we 
want to be in a position to continue to encourage that.
    We are the United States of America. We do have leverage, 
should we choose to use it. But that is why, again, I would not 
make any suggestions on troop levels at this point. We need to 
see a President engage. We are a Presidential system. If the 
President isn't decided on what he wants to do, then you start 
to lose that kind of influence.
    So, again, I would like to see the President ask his 
Secretary of State to go out to Iraq, spend more than 12 hours 
there, start a process of engagement with not just the current 
government, but political leaders across the board, and then 
report back on what is possible and what isn't possible, and to 
go from there.
    Ms. Cheney. Thank you. And, Dr. Pollack, I walked in as you 
were saying that there will always be ungoverned areas. And in 
keeping with the great tradition up here in the House of 
Representatives, I am not going to let the fact that I walked 
in two-thirds of the way through stop me from asking you a 
question.
    Talk about the extent to which--you are not saying that we 
shouldn't be denying safe haven, are you?
    Dr. Pollack. No.
    Ms. Cheney. And so when you--what is that balance? In terms 
of--we have got to deny safe haven. We have also got to deny 
recruits. But how can you ensure that we are going to deny safe 
haven in the absence of, you know, some basic level of troops, 
American troops on the ground?
    Dr. Pollack. Thank you very much, Congresswoman. It 
obviously depends on what we are talking about. In places like 
Iraq, where I think the United States has a clear national 
interest that goes beyond the mere terrorism problem, I think 
the presence of troops is warranted, at least for a certain 
period of time and probably longer than Dr. Lynch believes is 
necessary.
    There are going to be places, though, like Mali, where I 
don't think that we are necessarily warranted American military 
presence because our interests are much narrower, no offense to 
any Malians who are here or may be thinking about this. But it 
simply does not rise to the same level as Iraq.
    Under those circumstances, I think the United States does 
need to use other tools available to it, whether it be 
diplomacy or assistance to the host nation, to try to make 
these places as unhospitable as possible. I want to agree with 
Dr. Lynch that the best way to do it is to help these countries 
repair themselves, an effort that you were trying to lead at 
least for the Middle East when you were at the State 
Department. You know better than I do that if you have 
functional societies----
    Ms. Cheney. You don't cost us votes in here today.
    Dr. Pollack. If you have functioning societies, you are 
going to have far fewer terrorists.
    Ms. Cheney. Thank you very much. I appreciate it. And I 
yield back, Madam Chairwoman.
    Mrs. Hartzler. Thank you very much.
    Representative Panetta.
    Mr. Panetta. Thank you, Madam Chairman. Gentlemen, thank 
you for your time, your preparation, and your testimony today. 
I apologize for being late.
    In regards to that sort of infrastructure development, I 
guess I saw something--or the RAND Corporation did something 
about Mosul's infrastructure, when--its water, its sanitation, 
its power capacity is not doing that well. What are the current 
efforts right now, be it through the United States government 
or be it through the Iraqi government, anything at all to help 
develop that? Because clearly that will play a part in its 
self-governing.
    Dr. Lynch. There have been pretty massive efforts to deal 
with the humanitarian crisis dimension of it. There is over 150 
NGOs on the ground working, coordinated by the coalition, and 
there has been a really quite remarkable effort at the 
humanitarian relief side. But the reconstruction side is still 
a blank slate. And I think that in the midst of crisis, it is 
very difficult to plan for the long term and to begin 
reconstruction when the fighting is still going on, which I 
think is why having this hearing right now is so important, 
because now is the time to get those plans into place, make 
sure they are fully resourced and coordinated.
    One of the other problems is that is going to have to be 
linked up to the political development inside of Iraq. In other 
words, there has to be some sense of what governance is going 
to look like in Mosul, who is going to be responsible for the 
administration of these reconstruction projects, who will get 
political credit for them, and how will they be linked into the 
broader Iraqi political system. To me, this is the absolute 
most important thing for us to be looking at right now.
    Mr. Panetta. Okay.
    Ambassador Crocker. Well, thank you, Congressman. It is an 
important question, obviously.
    One of the problems the Iraqis confront, and their friends 
with them, is a diminution of resources. There just isn't that 
kind of money floating around anymore. They are running a 
horrific deficit, and you see the consequences.
    During my time there in 2007, a decade ago, the prime 
minister, Nouri al-Maliki, extended the first supplemental 
budget increase--we taught them a lot of bad habits, and 
supplemental budgets, of course, would be among them. The prime 
minister allocated $250 million to the province of Anbar, 
because he was finally persuaded that if you really want to 
turn the tide out there against Al Qaeda, support the 
Awakening. And it worked.
    Well, Prime Minister Abadi doesn't really have $250 million 
to push up to Mosul. So I think the emphasis is going to have 
to be on, you know, a hard-eyed analysis of what really needs 
to be done and done quickly to provide momentum for political 
solutions, but at the same time to be pressing on the issue of 
governance, because I think we have all said this in one way or 
the other.
    Again, if you want to look through the 100-year history of 
the modern Middle East, there is one single word that I use, 
governance, the failure thereof. And that goes back to 
colonialism and imperialism, the French and the British, and it 
runs right up to today. Now we have Islamism, also a failure to 
govern.
    So if you--even if you do have the money for resources, you 
have got to get the governance thing down and down right, and 
it is enormously difficult and it is going to take a lot of 
time. I just hope we are prepared to make that commitment.
    Dr. Pollack. Congressman, if I could just add one point, 
which is this stuff is very hard to do in the moment, right? We 
are once again trying to build an airplane in mid-flight, 
something that we have repeatedly tried to do in Iraq. I would 
actually argue the time to have dealt with the governance issue 
in Mosul--in fact, I was arguing it then--was 18 to 24 months 
ago, when it would have been far easier to deal with. 
Unfortunately, we didn't, and it is getting harder and harder.
    We are coming up on elections in Iraq. Inshallah, there 
will be elections at some point in the spring. The closer we 
get to those elections, the harder it is going to be for us to 
deal with many of Iraq's political problems. And as again, 
Ambassador Crocker knows better than anyone, after those 
elections, we could face a long and painful process of 
governance formation. It is why doing this now is so critical 
and why it is so wonderful that you are taking up this issue 
now and hopefully can push the administration to engage with it 
more fully.
    Mr. Panetta. Understood. Thank you. I yield back. Thank 
you, Madam Chair.
    Mrs. Hartzler. Sure, thank you. And we have more questions, 
but I know, Dr. Lynch, you have indicated you had a hard stop 
at 4:30, so if you need to leave, we certainly want to give you 
the grace to do that. And thank you for coming. Appreciate it.
    Dr. Lynch. Thank you, Chairman. I think my students will 
understand if I stay for the last few minutes.
    Mrs. Hartzler. Okay, very good. Well, thank you. 
Representative Suozzi.
    Mr. Suozzi. Thank you, Madam Chairwoman, and thank you to 
the witnesses again. And I apologize, like the previous few 
Congress Members, for being late here today and for missing so 
much. And I apologize if I am repeating some things that you 
have asked earlier.
    I am concerned about two complicating factors for the long 
term in the area. One is the close relationship between Iran 
and Iraq based upon the fact that major Shia religious sites 
are located within Iraq. And it is normal for tourists from 
Iran to come into Iraq on a regular basis. And there is a lot 
of cultural friendships and relationships based upon these 
religious sites that have been established over centuries, and 
how complicating is that factor?
    The second factor has been the genocide of Christians and 
Yazidis and other minority groups within Iraq and Syria. And I 
just want to get a quick insight from each of you about how 
complicating a factor that will be, those two factors will be 
going forward.
    Ambassador Crocker. On the first, Congressman, I would 
certainly never recommend that Iraq take steps to bar Iranian 
pilgrims from the holy sites in Iraq. You are quite right, 
those are major pilgrimage destinations, just as we see Muslims 
from around the world flock to Mecca in Saudi Arabia.
    My colleagues have said quite rightly Iran will certainly 
have influence in Iraq. It is natural, one neighbor to another. 
But we also need to keep in mind that an agreement on--that 
they are all Shia together is significant, but there are many, 
many differences, linguistic, Arabs versus Persians, lots of 
constraining elements at work, too. So in countering Iranian 
influence in Iraq, I would go nowhere near an effort to block 
Iranian pilgrims.
    On the plight of the Christians in Iraq and, indeed, in 
Syria, no question about it. We are reaching the point where we 
may see the critical weight of the Christian communities, 
particularly in Iraq, get below the level necessary to sustain 
their presence. And I would think that that would need to be a 
very important issue for the administration to take up. But it 
has to be done delicately. We cannot create a public impression 
that we are there to defend the Christians. That is sadly only 
likely to increase the pressures on them.
    So this is all tough. It is all complicated. As Dr. Pollack 
says, you can't do it in the moment. You have got to make the 
commitment to a long-term, high-level sustained political 
effort in Iraq and elsewhere in the region.
    Mr. Suozzi. And how do you militate against the influence 
of the Popular Mobilization Units? I mean, that is--those are 
all Iranian-backed, right, for the most part?
    Ambassador Crocker. No, sir. I think as Dr. Lynch and Dr. 
Pollack have both said, they run a spectrum.
    Mr. Suozzi. Okay, you don't have to answer that, then. 
Anything you want to add, Mr. Pollack?
    Dr. Pollack. I think they are both excellent points, 
Congressman. And I will simply make some broader points. First, 
as you point out, as we have talked about repeatedly this 
afternoon, there are deep interlinkages between Iran and Iraq. 
And there is nothing that we are going to do that are going to 
end those.
    Likewise, the problems of genocide and intercommunal 
violence in Iraq are also pervasive. And it is important to 
remember the words of a very wise man who used to repeatedly 
say that Iraq is very, very, very, very, very hard and it is 
very, very, very, very hard all the time. Did I get all the 
verys?
    That said, we also--you know, one of the most remarkable 
things about Iraq is the ability of this country to overcome 
all of those problems and all of those interlinkages. We need 
to remember that in 2007, 2008, when the United States started 
to reverse the perverse incentives that we created in 2003, 
2004, it was incredible how fast Iraq started to turn around.
    Now, Iraq was never Switzerland, right? Iraq was not 
exactly, you know, ready for EU membership. But the change, the 
direction, the delta was remarkable, and it was incredible to 
see Iraqis coming together out of a recognition that hanging 
together was much better than hanging apart.
    So it is simply a way of saying that you are right, there 
are problems, there are complications, we need to be aware of 
them. That is exactly why we need to plan ahead, why we need to 
make a big effort, work with the Iraqis, but we also shouldn't 
just throw up our hands and say this is impossible.
    Dr. Lynch. If I may, the problem of the minorities in Iraq 
has been an enormous since 2003. You have seen the devastation 
of minority communities across Iraq, not just Yazidis and the 
Christians, but beyond. The best protection for minorities is 
to have a strong and capable Iraqi state that can protect all 
of its citizens. Trying to single out particular communities 
for protection I think is very difficult to do, and it is not 
sustainable in the long term, but making that part of a broader 
package of building state capacity I think is absolutely vital.
    Mr. Suozzi. I have exceeded my time. Thank you very much, 
Madam Chairwoman.
    Mrs. Hartzler. You bet. Thank you to each and every one of 
you. We very much appreciate this. We have more questions we 
could ask, but we are going to have votes in about a half an 
hour. We want to get to our second panel. But thank you so much 
for all your insights and all of your devotion to our country 
and helping out today.
    So let's go ahead and I would like to invite the second 
panel to the witness table. So we will invite them in.
    So as they get settled, I will make some brief 
introductions. We want to welcome this Department of Defense 
panel. We have Mr. Mark Swayne, Acting Deputy Assistant 
Secretary of Defense for Stability and Humanitarian Affairs in 
the Office of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict.
    We have Brigadier General James Bierman, director of the 
Middle East division on the Joint Staff J-5.
    We have Mr. Joseph Pennington, Deputy Assistant Secretary 
for Iraq in the Bureau of Near Eastern Affairs at the 
Department of State.
    And we have Ms. Pamela Quanrud, Director of the Global 
Coalition to Defeat ISIS at the Department of State.
    Due to the time that we have, I think we will forego the 
opening statements, if we could, since we only have a half an 
hour before votes. And we want to get right to your thoughts 
and your insights on things. So thank you so much for being 
here.
    Mr. Pennington, I think I would like to start with you. 
What can you tell us about conversations between the United 
States and the government of Iraq? How long do you anticipate 
having a large military footprint in Iraq? And what is the 
prospect of executing an agreeable status of forces agreement 
with Iraq?
    Mr. Pennington. Thank you, Madam Chairwoman, and thank you 
for the opportunity to be here today to testify.
    I think I will--on the first part of your question, I will 
kick a large chunk of that to my DOD colleagues, but I will 
just comment that I think the success that we--and when I say 
we, I mean the coalition supporting Iraqi partners on the 
ground--have had in the fight against ISIS has convinced Iraqi 
leaders or Iraqi partners, including Prime Minister Abadi, of 
the efficacy of partnership with U.S. and coalition forces.
    The prime minister is open to and enthusiastic about the 
prospect of continuing that partnership going forward to meet 
new challenges in Iraq, once the active military operations 
against ISIS wind down.
    Again, I want to not get into too much of the DOD territory 
here, but I think there is a very good prospect for continuing 
a security partnership under the strategic framework agreement 
that we have in place with Iraq. And I think there is a good 
appetite for that on both sides.
    With regard to the part of the question about status of 
forces, as you may know, we have an exchange of notes that 
regulates military presence in Iraq now. We believe--and I 
think my colleagues would say the same--that that is sufficient 
for our presence as it currently stands, given the purpose and 
the scope of that relationship.
    Maybe I will stop there and invite other comments.
    Mrs. Hartzler. Sure, appreciate your perspective from the 
Department of State. Department of Defense want to weigh in on 
that?
    Mr. Swayne. Thank you, Madam Chairwoman and Ranking Member 
Moulton and all subcommittee members for having us today. For 
the issue of the SOFA [Status of Forces Agreement], I agree 
completely with my State colleague. U.S. forces in Iraq are 
operating under the 2014 exchange of notes with the government 
of Iraq. This exchange of notes provides U.S. forces with the 
appropriate protections and not further commitments--no further 
commitments are required, so we feel that that exchange of 
notes is appropriate for right now. Thank you.
    Mrs. Hartzler. Yes, very good. Well, thank you. Mr. Swayne, 
given continued budget pressures, readiness crises across the 
military and competing national security interests, how do you 
expect to achieve our objectives in Iraq?
    Mr. Swayne. Thank you very much. As we--the DOD mission in 
Iraq is focused on dealing with ISIS and to deliver them a 
lasting defeat. I think that is a critical issue for the United 
States Department of Defense. It is clear that our objective is 
to defeat ISIS wherever it exists, and in Iraq is a very 
critical portion of where ISIS remains. Once they are defeated, 
we think that that defeat will not occur immediately after ISIS 
loses its territorial control.
    ISIS is likely to continue to plot or inspire external 
attacks, and to deal with that threat, the United States 
Department of Defense is going to have to have a relationship 
with the government of Iraq and the Iraqi security forces to 
require continued training and to effectively secure liberated 
areas.
    Now, the last 3 years of fighting have effectively secured 
liberated areas, and we have focused on conventional 
operations. And a new ISIS threat will require proficiency in 
wide areas of security operations in counterinsurgency, and 
that is an area I think that we can work with the Iraqi 
government and the Iraqi military to determine what the needs 
are going forward with the Iraqi security forces, and that 
includes the United States and also our coalition partners as 
we look for the advise-and-assist teams and to work for the 
future training missions.
    Mrs. Hartzler. But the question was dealing with our budget 
situation that we have and the readiness crises that we have 
encountered. So do you have what you need in order to be able 
to finish the mission there and carry it out? What are areas of 
concerns that you have or needs that you may have?
    Mr. Swayne. Yes, ma'am, thank you. With the actual budget 
numbers and the actual numbers of our troops going forward, 
that is something that in this unclassified open hearing, we 
are not prepared to discuss the particulars. It is ongoing 
right now for the planning within the Department of Defense and 
to look at what the requirements are with our Iraqi partners 
and then come back and work with the committee to determine, 
once we have that plan, in a classified, closed session, then I 
think we will be ready for an open discussion after that.
    But at this time, the details on the budget or the numbers 
are certainly things that we are concerned about, thinking 
about. It is very clear to us that in the defeat of ISIS, the 
long-term defeat of ISIS and a lasting defeat of ISIS, we need 
to have a strong Iraqi government and a strong Iraqi security 
forces. And that is certainly at the top of our priority list 
within the Department. Thank you.
    Mrs. Hartzler. Okay, thank you. Ranking Member Moulton.
    Mr. Moulton. Madam Chairwoman, thank you very much.
    Thank you all for joining us here today. As an Iraq war 
veteran myself, I know that I am joined by several others both 
in the room, and, General, thank you for your service on the 
panel. We were in Hillah about the same time in 2003.
    I can't tell you how painful it is as an Iraq war veteran 
now sitting on this committee to see us fighting and refighting 
so many of the same battles that we fought, that our friends 
gave their lives for. And so the question that we must ask is, 
how will this time be different? How do we know that now that 
ISIS is about defeated there won't be an ISIS 2.0, just as ISIS 
in many ways is Al Qaeda in Iraq 2.0?
    We heard from the expert panel that preceded you how 
important it is that Iraqi politics be the primary effort. The 
primacy of the political effort is the phrase that several of 
the panelists used. But I am not hearing that from you yet. I 
am hearing about how we are going to ensure we clean up the 
rest of ISIS and we train the Iraqi military. I haven't heard 
anything about how we are going to ensure the success of Iraqi 
politics, which ultimately will prevent us from having to come 
back and clean up the mess when Iraqi politics fails.
    Just before this hearing, I discussed this with Secretary 
Mattis and General Dunford. And the Chairman and the Secretary 
agreed that we have to have a political plan. So where is that 
political plan? How will it be better and different than the 
political effort in the past to ensure that we don't repeat the 
same mistakes and find us coming back to Iraq to refight these 
same battles yet again?
    Mr. Pennington. Thank you very much for the question, 
Congressman. Maybe I will start on that. And I think just as we 
have approached the military issue--the military side of the 
relationship with Iraq in this fight against ISIS in a somewhat 
different way, what we will call by, with, and through, 
supporting, but having Iraqi partners lead on the ground, 
building that partnership from the ground up, we believe that 
the same kind of approach on the political side is the right 
strategy going forward.
    And so we have focused our efforts, our immediate efforts 
on strengthening Iraq's ability to govern the liberated spaces, 
and by that I am referring to our efforts towards 
stabilization.
    Mr. Moulton. Can you just give us an idea of what those 
efforts are?
    Mr. Pennington. Sure. So by stabilization, it is a fairly 
broad concept, but the way I would define it is to create the 
conditions on the ground to enable those who have been 
displaced by the fighting and by the ISIS terrorism to make the 
decision to return to their homes and live in security, 
reestablishing their communities, with the support of the Iraqi 
government.
    Behind that Iraqi government support is the United States 
and our coalition partners. And so we, on the one hand, have 
spent more than $1.7 billion to deal with the immediate 
emergency of humanitarian displacement, making sure people can 
survive when they are displaced, and beyond that and more 
recently, have worked with our coalition partners through the 
U.N. Development Program, something called the Funding Facility 
for Stabilization, to help the Iraqis to go into liberated 
areas, to rebuild the infrastructure, basic services, water, 
electricity, schools, health clinics, clearing rubble from the 
streets, getting some cash into the economy.
    Mr. Moulton. So with all due respect, if we had been here 
in 2004 or 2005 or 2007 or 2008, it would have been the same 
thing. How is this time different?
    Mr. Pennington. Well, I would suggest, Congressman, that it 
is a matter of reestablishing government authority in areas 
where they have been absent, through our consistent support to 
help strengthen governing institutions, to partner with Iraqis, 
and we have an excellent partner.
    Mr. Moulton. Sir, I was there last in 2008. We did exactly 
the same things. How is this time different? How will we ensure 
that when we do all those same things as we did as the previous 
panelists mentioned actually quite successfully in 2007, 2008, 
with over 100,000 troops to assist in the effort, how is this 
time going to be more successful so it doesn't fall apart 
again?
    Mr. Pennington. On the political side, Congressman, as you 
know, we are approaching an election season in Iraq. That is 
something that is going to be--the politics of this are going 
to be fought out by Iraqis. We have, of course, contacts across 
a broad range of Iraqis, Sunni, Shia, Kurd minorities.
    We are encouraging full participation of all segments. We 
believe we have the--and there is some polling data to bear 
this out--that Iraqis are increasingly seeing their governing 
challenges as requiring national solutions, and so there is a 
greater sense of an Iraqi national identity, a greater cross-
fertilization across sectarian lines.
    We would expect in this election to see alliances and 
coalitions built across sectarian lines which would build a 
more inclusive governing structure.
    Mr. Moulton. So I appreciate the hopeful description of 
Iraqi politics. You still haven't said a single thing that we 
are doing differently. What is the United States doing 
differently? General, would you care to comment on this, 
please?
    General Bierman. I will make a couple comments. And thanks 
for the question. Based off of the events in 2014, the Iraqi 
government invited us in. And what occurred with the rapid 
spread of ISIS was a representation to Iraqis across the 
spectrum of how bad things could be.
    And we have established a trust relationship, military-to-
military, but we would be the first ones to tell you that the 
ultimate success and future of Iraq is political, is economic, 
and is diplomatic.
    Some of the things that I would tell you that I see is 
different, like you, having made several trips back and forth, 
I think we have a fragile but responsible Iraqi government. And 
I think they want a long-term relationship with us, and they 
have voiced across the military and civilian governance that 
they want us to stay, because the events of the last 2 years 
have showed them that they need us.
    The other thing I would say is the Iraqis, contrary to some 
of the experiences you and I have had in the past, not to take 
anything away from the great efforts of the U.S. military to 
enable the Iraqi operations, they are fighting their own 
battles. Over the last year, the Iraqis have suffered tens of 
thousands of casualties in the fights to liberate their 
countries.
    And I take nothing away from those extraordinary U.S. and 
coalition service men who have been killed or wounded. God rest 
their souls. But the Iraqis are carrying this fight on their 
backs. We are going to have significant challenges as we near 
the end, as we approach the end of physical ISIS. That has been 
a unifying factor that has united a lot of disparate elements 
across the spectrum in Iraq. And we are going to have to work 
very, very hard politically, diplomatically to knit this 
fragile Iraqi ecosystem together.
    One of the key components of strong governments is going to 
be efficient and professional Iraqi security forces. So while 
we stay, you know, focused within our military lane, we very 
much see that as a means to an end that one of the key factors 
in enabling the Iraqi government is what we are doing on the 
military side. Thank you.
    Mr. Moulton. And, General, I agree with everything you 
said. And that was my experience on the ground in Iraq, too, is 
I understood how important it was for the politics to follow 
through. But back in 2008, I felt like we had a lot of 
political resources in country. As I have been to visit Iraq 
more recently as a member of this committee, I have repeatedly 
heard from our State Department and officials on the ground 
that--and our military--that they don't have the political 
resources necessary.
    Chairman Dunford just a couple of hours ago said--talking 
about Afghanistan--that we need to push State Department 
resources further down into the Afghan political system, but we 
are not doing that yet. Again, has anything changed? Are we 
doing it now in Iraq where we weren't doing it 6 months or a 
year ago, so that ultimately where we have not been able to 
ensure the political success of Iraq in the past, you can now 
tell me that you have the confidence that we will?
    General Bierman. I would just simply agree with what you 
just heard from the Chairman of the Joint Chiefs of Staff, that 
we would certainly advocate an increased and stronger role 
from----
    Mr. Moulton. Thank you, General, for your candor.
    General Bierman [continuing]. From the Department of State. 
And I think that the folks that they have on the ground are 
doing remarkable things, but we would support increased efforts 
in that area.
    Mr. Moulton. Would anyone else on the panel care to 
comment?
    Mr. Pennington. If I might, Congressman, just following up 
on the general's comments, I think in terms of what is 
different now, I think one thing that is different is that the 
Iraqis have seen the terrible cost of political failure up 
close and the destruction of communities, the destruction, the 
genocide that has been carried out against various groups by 
ISIS, and ultimately the destruction of largely Sunni cities, I 
think has been a very sobering experience for Iraqis across the 
political spectrum and across sectarian divides.
    And I think that is what is driving what I referred to as a 
more hopeful political picture. There are no political 
guarantees. And this will be a process that is Iraqi-driven. 
And we will support in every way that we can, but I think that 
level of destruction and the level of terror that the 
population has endured has changed attitudes in Iraq.
    Mr. Moulton. Thank you. Director Quanrud, do you have 
anything to add?
    Ms. Quanrud. No.
    Mr. Moulton. Mr. Swayne, if I may just briefly ask, do you 
agree with the consensus of the expert panel that the primary 
effort must be political in Iraq at this stage?
    Mr. Swayne. Yes, absolutely. I think there is no doubt 
about, for sustainable security, for sustainable stability in 
Iraq over the next few months, years, we have to have a clear--
so I agree with that wholeheartedly and to respond a little bit 
to the question before, DOD, it is our whole-of-government 
approach working by, with, and through. We certainly have to 
work very closely--we, the Department of Defense, must work 
very closely with the Department of State and USAID [U.S. 
Agency for International Development] as they work to support 
the Iraqi government.
    And we must stay committed, we must be working with our 
international partners. The U.N. is doing quite a bit in Iraq 
right now on not only the humanitarian assistance issues, but 
also stabilization. They are doing that under and with the 
Iraqi government. I think that is important that we support the 
Iraqi government for their viability, and I think if there is 
anything a little bit different, we are all focused on 
supporting that government, that Iraqi security force, and 
working holistically from our government.
    And to answer your question, we absolutely need to work 
more closely and support our State colleagues on what the needs 
are, what the whole needs are for that long term.
    Mr. Moulton. Thank you, Mr. Swayne. I mean, I am pleased to 
hear that, because earlier you had said that the DOD effort is 
to defeat ISIS and that was it. We need a whole-of-government 
approach.
    Mr. Swayne. No, sir. And I apologize if we didn't--I didn't 
have my opening remarks. I didn't get to----
    Mr. Moulton. Fair enough.
    Mr. Swayne [continuing]. Say those points. So I had to go 
back and review those and get that. But there is no doubt about 
it. It is a whole-of-government approach.
    Mr. Moulton. Madam Chairwoman, thank you very much.
    Mr. Swayne. I apologize if I----
    Mr. Moulton. Thank you.
    Mrs. Hartzler. Thank you. Representative Banks, Indiana.
    Mr. Banks. Thank you, Madam Chair.
    Mr. Pennington, can you talk a little bit about the 
security cooperation budget for Iraq in a post-ISIS 
environment? What does that budget look like today? What are 
the strategies for what that budget might look like tomorrow 
moving forward?
    Mr. Pennington. Congressman, I know there have been 
discussions between others from the administration, from the 
Department about budget issues, and I am not really prepared to 
talk about specifics of the budget.
    We have a robust security cooperation program with Iraq 
through foreign military financing [FMF] that I know the 
subcommittee is aware of. We are continuing that. There is also 
a train-and-equip element to this that is DOD-run that my 
colleagues may wish to comment on. But in terms of what budgets 
look like going forward, I think we need to leave that to other 
briefers.
    Mr. Banks. So is it safe to assume, though, that the FMF 
budget might look different in a post-ISIS environment than 
what it does today?
    Mr. Pennington. Congressman, I am just not in a position to 
say what it is going to look like.
    Mr. Banks. Okay, that is disappointing. Thank you. I yield 
back.
    Mrs. Hartzler. Representative Gallego.
    Mr. Gallego. Mr. Swayne, why isn't the OSD [Office of the 
Secretary of Defense] Policy's Middle East office or the office 
of the ASD [Assistant Secretary of Defense] for International 
Security Affairs presented here or presenting here today?
    Mr. Swayne. Thank you, sir. My office was asked to come 
represent--because my area of specialty is stabilization and 
humanitarian assistance. And it was determined that the aim of 
this particular committee, subcommittee discussion would be to 
focus in that post-ISIS--what we can look to do, the Department 
of Defense supporting other interagencies in that area. That is 
the reason, sir.
    Mr. Gallego. Okay. Interesting. Is there a disagreement in 
policy or is there a lack of engagement, in your opinion, by 
the regional office leadership at the Pentagon on ISIL's life 
cycle, especially post-Mosul? We just actually had another 
briefing before this discussing this, also.
    Mr. Swayne. No, sir. I see no lack of--we are certainly 
coherent in policy. I think that is--they feel comfortable that 
they can send somebody besides the DASD [Deputy Assistant 
Secretary of Defense] for Middle East up here to brief on our 
activities. When we talked about the last question by 
Congressman Banks was to talk about the--what is the budget for 
the Department of Defense 2017, we have $1.1 billion for the 
training and equipping through NDAA [National Defense 
Authorization Act] section 1236 authority, and in 2018, we are 
planned $1.27 billion.
    So it is certainly as the number of dollars and our 
commitment to working with the Iraqi security forces, not 
lessening, it is increasing, we certainly see the need--again, 
as we talked about we have a plan to defeat ISIS, but the seeds 
of the next resurgence of ISIS are in the rubble of where the 
ISIS-controlled areas right now, the areas that ISIS destroyed, 
and we need to be diligent and work closely with the Iraqi 
security forces, working with our interagency partners, as we 
sustain that stability so that ISIS 2.0 doesn't grow out of 
those seeds that are in the rubble.
    So we are certainly committed to it, Congressman.
    Mr. Gallego. Thank you, Mr. Swayne. Who is the acting or 
current--or who is the current DASD for the Middle East?
    Mr. Swayne. Yes, sir. The current DASD for--is an acting 
DASD----
    Mr. Gallego. Acting.
    Mr. Swayne [continuing]. Brigadier general rank. I believe 
that is also another reason we have two--we would have two 
military uniformed officers up here. And I felt that--I believe 
the leadership felt that it would more appropriate if a 
civilian representative of OSD Policy--brigadier general rank 
is certainly in tune with all of these activities. I talk to 
him every day about Iraq, Syria, and the de-ISIS efforts.
    Thank you, sir.
    Mr. Gallego. Just in closing, Madam Chair and Ranking 
Member, I think it is--for me, it shows a certain level of 
disagreement and also lack of commitment when we have so many 
acting positions that are being filled in a policy area that we 
all think is extremely important.
    Thank you. I yield back my time.
    Mrs. Hartzler. Thank you. Representative Scott.
    Mr. Scott. Thank you, Madam Chair. General, you talked 
about, if you will, a unifying enemy that has brought people 
together. Assuming that we are able to defeat that enemy in the 
near future, one of the issues that will have to be addressed 
is the issue of the Kurds.
    They have recently had an overwhelming referendum on 
independence. And my question revolves around that. How do you 
see stability in the region for the Kurds after the defeat of 
ISIS?
    General Bierman. You would agree with me, sir, it is a very 
concerning development. It is one we tried to forestall across 
the whole of government. Secondary to the political and 
diplomatic interactions we had with the KRG [Kurdistan Regional 
Government] leadership, we certainly messaged that at the 
military level, as well.
    It has occurred now. You know, the referendum has come and 
gone. And we are watching that very, very closely. One of the 
key factors in the battlefield successes that we have had 
against ISIL in Iraq has been Kurdish and Iraqi security forces 
cooperating and working together, most recently demonstrated in 
the liberation of Mosul.
    And we can't afford to have this referendum and whatever 
follows destabilize us as we are on the brink of defeating 
physical ISIS. We are watching events very, very closely on the 
ground. There has been some political maneuvering that is 
occurring.
    So far, we have not seen any elevation of violence, but, 
you know, secondary to what is going on, on the diplomatic 
side, we certainly in the military are messaging both Iraqi and 
Kurdish military leaders that we have established very strong 
relationships with over the last couple years. It is a concern.
    Mr. Scott. What are Iran's intentions in Iraq and Syria? I 
mean, do they intend to just try to continue to foster chaos? 
What do you think the end game for Iran is?
    General Bierman. I think the Iranians want to ensure that 
they create conditions in Iraq so that they are never 
threatened like they were during the 1980s, which was a 
horrific and bloody war, and both countries suffered 
significantly.
    I think the Iranians want to establish a land bridge that 
goes from Tehran all the way into areas of Syria and Lebanon 
where they can threaten and potentially apply pressure to 
Israel. But I think ultimately I would walk back to the first 
of my answer and say the Iranians seek a neighboring Iraq which 
cannot threaten the revolution and the Iranian regime.
    Mr. Scott. Madam Chair, I know we are short on time. I will 
yield the remainder of my time so that other members can ask 
questions, as well.
    Mrs. Hartzler. Thank you very much, and those were very 
good questions on Kurds and Iran. Representative O'Halleran.
    Mr. O'Halleran. Thank you, Madam Chairwoman.
    General, thank you for your service to our country. You had 
mentioned a fragile government. What defines that fragile 
government? And in your mind, what can we do to change that?
    General Bierman. Yes, sir, I want to make sure I stay in my 
lane, but I think Iraq is a country made up of a lot of very 
different, disparate cultural, religious, demographic elements. 
During my five trips back and forth to Iraq, I have been in 
Shia land, I have been in the Sunni areas, and I have been in 
Kurdistan. And I think it is a tremendous challenge to any 
government to try to knit together people with those kind of 
different interests and agendas, and then to provide 
responsible and inclusive governance.
    I would, sir, go back to what I said before at the risk 
maybe of repeating myself a little bit. We are very, very 
focused on ensuring that our efforts to enable the Iraqi 
security forces, you know, address any internal or external 
threat, that that buys the time for the Iraqi government to 
continue to coalesce, improve, and provide that responsible 
governance to the people of Iraq.
    Mr. O'Halleran. Thank you, General. Luckily, we have Mr. 
Pennington here. And if you can expand on that question and 
also identify what the current staffing levels are in Iraq for 
the State Department. Are there additional needs that you look 
into--have? And what are the funding levels for assistance into 
the area?
    Mr. Pennington. Thank you, Congressman. On the question of 
governance and fragility of governance, I think it is fair to 
say that the United States government has been very actively 
engaged in trying to shore up the Iraqi government on a number 
of fronts. I mentioned the support for Iraqi priorities of 
humanitarian assistance and stabilization of liberated areas. 
That is the prime minister's focus. That is what helps him 
politically and helps the government strengthen 
institutionally.
    I would also point out the support that we have provided to 
the Iraqi government in terms of getting its fiscal house in 
order on the economic side. The economic pressures that Iraq 
has been under, because of the conflict, the presence of ISIS, 
the collapse of oil prices, the humanitarian crisis, that 
created an economic crisis both in Baghdad and Irbil of massive 
proportions.
    We and other G-7 [Group of Seven] partners stepped forward 
to fill the fiscal gap. We through a sovereign loan guarantee, 
a $1 billion sovereign loan guarantee, which the Iraqis then 
followed up by borrowing in the private market, that would not 
have been possible without our support. And getting a deal with 
the IMF [International Monetary Fund], which provided the 
additional financing necessary to close that gap and keep the 
government on its feet during this time of tremendous 
challenge, again, would not have been possible without U.S. 
support.
    And that--the IMF program has been the key to starting the 
government on a path of significant economic reform, which they 
are complying with the conditions of the IMF program. So on all 
of those fronts, we are being both responsive to the needs, the 
political needs of the Iraqi leadership, supporting them where 
it is most important to them, and also strengthening the 
institutions.
    Mr. O'Halleran. And do you feel that the staffing levels 
are adequate and that--the funding levels, are the question I 
asked.
    Mr. Pennington. Congressman, in terms of staffing, there 
was a decline in staffing following the incursion of ISIS into 
Iraq for security reasons. A lot of those numbers have now 
trended back up. The chief of mission has--is continually 
making recommendations on staffing levels to respond to needs 
that he sees on the ground. Washington has been fully 
responsive to those requests, and so we work those issues on a 
daily, weekly basis.
    Mr. O'Halleran. And funding?
    Mr. Pennington. Funding, in terms of our economic support 
funding for Iraq, has been holding steady. We are well 
resourced for this year for the activities that I described. 
Again, not going to get into a discussion of budget levels 
going forward, but we think for the moment we have what we 
need, particularly when you factor in that coalition partners 
on the civilian side and support--actually the ratio is roughly 
3 to 1. For every dollar we put up for stabilization, 
humanitarian efforts, our coalition partners come up with about 
three times that. And so put all that together, and I think the 
support has been quite robust.
    Mr. O'Halleran. Thank you, Madam Chair. I yield.
    Mrs. Hartzler. Thank you. Representative Panetta.
    Mr. Panetta. Thank you, Madam Chair. Lady and gentlemen, 
thank you very much for being here. Appreciate your testimony, 
your preparation, obviously.
    I admit you know a heck of a lot more about this topic than 
I do. And so my question is going to be pretty broad and pretty 
easy. But I think in order to accomplish a lot of the goals 
that you are talking about, you not only need money, you not 
only need military help and diplomacy, but you need 
credibility. And so based on your experience, what is the 
United States reputation in Iraq with the government, with the 
people? And does that affect our ability to accomplish our 
mission?
    Mr. Pennington. Maybe I will start, Congressman. That is a 
great question. I will be happy to start, but I would welcome 
other comments.
    I think we have built up since the incursion of ISIS, the 
coming to power of the Abadi government in summer of 2014, and 
the way that the military and now subsequently the 
humanitarian, the support has played out in Iraq, I think there 
is a recognition that the United States role has been 
indispensable in allowing Iraq to make the progress that it has 
made. And I think it is hard to quantify in terms of public 
support, but I think what we do see is a broad spectrum of 
support across sectarian lines in Iraq that understand the 
benefits of an America--of a strong relationship with the 
United States and American presence. And this goes Shia, Sunni, 
Kurd.
    And so when we talk about a future relationship, whether it 
is security, economic partnership, commercial relationship, I 
think it is safe to say that there is broad support across the 
Iraqi political spectrum. And I believe that does translate at 
the popular level, as well. It is harder to measure.
    Mr. Panetta. Despite what happened, you know, after 2003, 
what happened with the Iraq war?
    Mr. Pennington. I think our absence from Iraq or our 
pulling back from Iraq in 2011, for all--and that is another 
topic that we probably won't get into here today--but it did--
and then our coming back to Iraq in a sense in 2014, when Iraq 
was faced with the most grave crisis, has really I think 
changed minds in Iraq or--of course, there are some who will 
never accept that presence. But I think most Iraqis want the 
U.S. to be with them, want our support, welcome our support, 
and look for a long-term relationship with the United States.
    General Bierman. I would just, sir, add to that good answer 
by saying we have gained a level of credibility in the way we 
have conducted the campaign. You know, looking back at where we 
were at 2014, when ISIS had overrun much of western and 
northern Iraq, working by, with, and through the Iraqi security 
forces, we have steadily over a period of 2 years, we have 
stayed focused, we have stayed committed, we have made common 
cause with the Iraqis, and we are seen in some respects as 
winners.
    But I would say--and, you know, it is a soft pat on the 
back if at all--that is not going to be enough in the long 
term. And one of the drumbeat themes from all of you is, it 
needs to be political and it needs to be diplomatic. And I 
think we could very easily lose some of the credibility we have 
gained by battlefield military success if we don't translate 
those gains into stabilization, you know, still a million 
displaced Sunnis who--they think it is great that their city 
has been liberated, but if their homes, their neighborhoods, 
their infrastructure is wrecked, whatever goodwill time we have 
bought for the Iraqi government, we have got to follow up on 
that rapidly. And that is going to be a big determinant of our 
long-term credibility.
    Mr. Swayne. My answer to that question, Congressman, is in 
the past after 2003 we were the--I would put it in the terms of 
we were the big brother and we had a little brother in the last 
few years. It is a partnership. They have an established 
government. They have an established Iraqi security force. We 
are not the big brother. We are a partner along with other 
coalition members who are coming in working with side by side. 
I think that is also a bit of a difference that it is not this 
paternalistic relationship. It is a specific.
    Mr. Panetta. Thank you, Madam Chair. I yield back.
    Mrs. Hartzler. Thank you. Representative Suozzi.
    Mr. Suozzi. Thank you, Madam Chairwoman. Thank you to all 
of you for your service to our country. We are very grateful to 
you for your good work.
    I traveled to Afghanistan in the spring, and there was a 
very clear military five-point plan as to what the strategy was 
going to be from a military perspective. And I am certain that 
there is a clear military strategy that has been documented by 
the Department of Defense related to Iraq and Syria.
    My question is, does the Department of State have a good 
document that I can read as to what the long-term plan is over 
the next 4 or 5 years related to both Afghanistan and Iraq and 
Syria? Ms. Quanrud? No?
    Mr. Pennington. Thank you, sir. Just to clarify. Are we 
talking on the military side?
    Mr. Suozzi. No, on the Department of State side, on more 
the civilian side.
    Mr. Pennington. We do have a--we have had strategy 
documents that are not time-limited that define our interests 
and long-term strategies in Iraq. Afghanistan is outside of, I 
think, any of our purview. Those are things we could discuss in 
a different setting.
    Mr. Suozzi. Okay, but I would like to get that document, if 
I can. Give me a good document to read. Okay?
    Mr. Pennington. We will take that back.
    Mr. Suozzi. Thank you. I yield back my time.
    Mrs. Hartzler. Thank you. Just wondering, how many of you 
have read the testimony from the first panel before? Have you 
had access to that or have you had an opportunity? Raise your 
hand if you have. You have. Good, good. I thought it had a lot 
of good suggestions, a lot of good insights to be considered in 
there. So I am glad to hear that you did that.
    General, there was some discussion in the last panel about 
the number of troops that we should have remain to stabilize 
once ISIS is defeated. Do you have an opinion on that? What do 
you think that we need, as far as numbers of troops?
    General Bierman. Yes, ma'am. And I know you will understand 
if I talk probably generally without specific numbers. We want 
to ensure that there is a balance that we need to strike. 
Coming back to the discussion of plans, our focus after the 
defeat of ISIS in terms of reliable partnership, building Iraqi 
capacity, is going to be on training, equipping, intelligence, 
counterterrorism, and security assistance.
    And I would say we want to leave just enough, but we also 
need to ensure that we remain very aware of the Iraqi political 
environment and that we don't wear out our welcome. The Iraqis 
continue to signal that we want us there, and we are having 
some very positive talks in terms of what is the right amount.
    There was a comment made earlier about some of the resource 
challenges we are seeing with all our commitments across the 
globe. So we are very focused on what is the smallest amount 
that we can leave in terms of residual capacity that will have 
the effect that we need to build Iraqi capacity.
    I think the conversations which are not in our lane, but we 
are a part of have been very positive back-and-forth between 
U.S., Iraqi governments, and some of the participating 
coalition governments.
    Mrs. Hartzler. Mr. Pennington, along those lines, one of 
the most important things that needs to occur is this political 
solution. It is the very difficult job of putting together an 
inclusive government that has Sunni and Shia and Kurds and is 
going to, you know, respect all the minorities, Christians, 
Yazidis, et cetera.
    What efforts are being made by the Department of State now 
to help force this discussion and this relationship? And with 
the presence of Iran there, how successful do you think this 
would be, to be able to get this together and get it right?
    Mr. Pennington. Thank you, Madam Chairwoman. Again, we are 
now heading into an Iraqi election season, so these issues are 
going to be debated during the course of that process. We 
can't, of course, control how that process comes out, but we 
can, of course, make sure that we are in connection with those 
across the spectrum in pushing them toward our central ideas of 
how governance--how we see governance in Iraq, which is 
inclusive, which is responsive, which is service-oriented, and 
which is cognizant of all sects, including minorities and their 
interests.
    So we have discussions with all sides, Sunni, Shia, Kurd 
minority across the spectrum about those issues. They know that 
support from the United States depends on inclusive governance. 
We have made that very, very clear. We see the prime minister 
as someone who is governing Iraq from--and despite all the 
challenges, from a nationalist, from an Iraqi perspective, not 
from a sectarian perspective.
    And so we see that he has developed, we believe, support 
from populations including many of the communities who have 
been liberated, which are mostly Sunni communities. And so 
the--if you look at public opinion polling in Iraq, for 
example, the attitudes toward the central government in Baghdad 
among Sunni populations have increased significantly in the 
last 6 to 12 months, because of the effort against ISIS and the 
effort to get people to return to their homes.
    And so we definitely have influence on the process and on 
the actors, but in the end, these are Iraqi political 
decisions. There will be coalitions formed, alliances formed. 
Our preference, of course, is that those alliances include 
cross-sectarian groupings. We think that in the current 
environment that that is possible and even likely.
    Mrs. Hartzler. Very good, thank you. Do you have any 
secondary questions? Yes, Representative Moulton.
    Mr. Moulton. Just a concluding comment. And I want to, 
first of all, thank you all for participating in the panel. 
Just as I expressed the responsibility that I feel as a member 
of this committee, but especially as an Iraq war veteran, to 
ensure that we don't waste more lives in Iraq, that we finally 
get this right after many times of getting it wrong and 
repeating our same mistakes, I hope you will feel that 
responsibility, as well.
    And I know that it is difficult working under an 
administration and having the constraints of that environment, 
where not everybody in the administration may see eye to eye 
with you or may agree with you. But I hope that you will 
remember the troops on the ground, the State Department folks 
on the ground, the people who are trying to get this right and 
need your support to succeed.
    Thank you.
    Mr. Swayne. Congressman, can I just make a point about 
that?
    Mr. Moulton. Yes, sir.
    Mr. Swayne. I pledged my allegiance to the Constitution, 
and I support the President of the United States and all the 
people appointed over me, but I come to work every day because 
of all the soldiers, sailors, airmen, and marines that are out 
there, and also our State Department people. So I take that 
commitment to heart.
    And I think we would be remiss if we didn't acknowledge 
that we are deeply saddened, but on October 1st, just most 
recently in Iraq, a service member lost his life to an IED 
[improvised explosive device]. Another service men was a 
casualty to that. So our heartfelt condolences go out to their 
families. And that is not lost on me or anybody on the panel. 
So we appreciate you saying that, and we certainly think about 
it, sir.
    Mr. Moulton. Thank you, Mr. Swayne.
    Mrs. Hartzler. I just wanted to thank each of you for 
coming today. And thank you for your commitment to the issue at 
hand and getting Iraq--having an opportunity to have success 
there for the future and remembering the troops. I think we 
have lost--over 4,500 American soldiers have given their lives 
to give the people of Iraq an opportunity to have freedom and 
to keep us safe here at home.
    And so thank you for remembering that every day and for 
keeping that in mind. I am encouraged by the polling and some 
of the things we are seeing, the gains that have been made the 
last few years. But we need to make sure and get this right 
moving forward.
    We have a wonderful opportunity ahead of us to chart a new 
path for Iraq. It is not going to be easy, but I know us here 
in Congress and on this committee are committed to doing what 
we can to help support this effort, because we want to see it 
succeed from here on out.
    And so we appreciate your commitment to that, look forward 
to working with you, and thank you for coming today, for your 
testimony. And with that, our hearing is adjourned.
    [Whereupon, at 5:31 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            October 3, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 3, 2017

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 3, 2017

=======================================================================

      

                   QUESTION SUBMITTED BY MR. MOULTON

    Mr. Moulton. General Bierman and DASD Swayne, in your testimony you 
alluded to the importance of demobilizing and reintegrating Shia 
militias (including but not limited to the Popular Mobilization 
Forces)--what role does DOD have in supporting this process and 
ensuring demilitarization proceeds?
    Mr. Swayne and General Bierman. Securing peace in Iraq will require 
a coordinated and strong whole-of-government approach that works by, 
with, and through the Government of Iraq. This approach continues 
placing the U.S. military in a supporting role, including in efforts to 
demobilize and reintegrate Shia militias. In November 2016, Iraq's 
parliament passed a law that stipulates that the Popular Mobilization 
Forces (PMF) are an independent military institution within the Iraqi 
Security Forces (ISF), which will be an obstacle to dissolving the PMF. 
Prime Minister Haider al-Abadi supports the law and is working to 
consolidate PMF factions not allied directly with Iran into the ISF.
    As defeat-ISIS operations succeed in liberating ISIS-held territory 
in Iraq, the Department of Defense's (DOD) security force assistance 
will shift to broader institutional efforts that ensure ISF are both 
effective and legitimate. U.S. building partner capacity efforts will 
prioritize counterterrorism, critical infrastructure protection, and 
border control capabilities. Civil-military operations will be a 
critical supporting effort for each line of effort. Working closely 
with the Department of State, the U.S. Agency for International 
Development, and international partners, DOD will support the 
Government of Iraq's efforts to solidify viable roles for the PMF 
within the ISF that are not duplicative or provocative of sectarian 
tensions.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SUOZZI
    Mr. Suozzi. Please provide a strategy document that outlines the 
Department of State's long-term goals and interests in Iraq and how the 
Department plans to implement them.
    Mr. Pennington. The Department of State's 2015-2017 Integrated 
Country Strategy (ICS) Chief of Mission Priorities for Iraq is included 
below. The ICS is the formal document in which the Department of State 
articulates its goals and country-specific policies. We will update 
this document in the next planning cycle to account for this 
Administration's priorities, including maintaining military gains 
against ISIS, countering malign Iranian influence, and promoting 
American trade and investment ties in Iraq.

    Begin 2015-2017 Iraq Integrated Country Strategy Chief of Mission 
Priorities:

    ``Over the next three to five years, the U.S.-Iraq relationship 
will remain a key priority for the United States, grounded in our 
shared Strategic Framework Agreement and impelled by our shared 
imperative to degrade and ultimately defeat the Islamic State of Iraq 
and the Levant (ISIL). We are committed to helping Iraq counter ISIL by 
providing U.S. military advice, assistance, and training, and by 
supporting inclusive governance, democratic institutions, advancing 
human rights protections, and improving relationships with the 
country's Sunni neighbors. Iraq has the potential to become one of the 
largest oil suppliers in the world over the next 20 years, endowed with 
energy resources that offer the possibility of economic self-
sufficiency. It also has the potential to become an influential 
international actor and U.S. ally, if it can overcome the sectarian 
violence, political division, and corruption that have characterized 
the last decade.
    Our immediate focus in Iraq is to degrade and ultimately defeat 
ISIL. Mission Iraq priorities for the next three years will be: 
enhancing Iraq's ability to secure and defend itself and its borders; 
bolstering Government of Iraq (GOI) revenues, improving financial 
management, and encouraging effective and equitable service delivery; 
providing humanitarian assistance to internally displaced persons 
(IDPs), refugees, and vulnerable populations; and assisting in post-
conflict stabilization in areas retaken from ISIL.
    Mission Iraq will also implement relevant parts of the 
Administration's overall regional strategy to help Iraq combat ISIL. 
Outreach and diplomatic efforts will support political reform, disrupt 
and constrain ISIL's financing, address the humanitarian crisis, and 
expose ISIL's true nature. We will continue to facilitate coordinated 
security assistance and military sales, as well as provide necessary 
support to Iraq to implement a comprehensive strategy to isolate ISIL 
from the Iraqi population and develop a longer-term plan for 
sustainable security. Our efforts will focus on rebuilding the Iraqi 
Security Forces (ISF) to take the fight to ISIL, while integrating 
tribal fighters. Mission Iraq will work to advance the eventual 
transition of these fighters and other local forces into a National 
Guard, as well as continue to provide targeted technical assistance to 
strengthen the institutional and organizational capacity of the 
Ministry of Defense as it regenerates Iraqi Army units. We will 
continue to encourage Iraqi political and security leaders to ensure 
that the fight against ISIL is conducted in a manner that protects 
civilians, minimizes the impact of the conflict on them, and adheres to 
the rule of law. And we will continue to engage Iraq's next generation 
through educational and cultural exchange and social media outreach 
programs that offer an alternative vision to ISIL's violent extremism.
    Our engagement with the GOI will continue to be broad and intense, 
covering a wide range of political and economic interests. While the 
GOI concentrates its resources and efforts on fighting ISIL, we will 
encourage prudent budgetary and fiscal practices that Iraq must employ 
to ensure it has the ability to finance the fight against ISIL, as well 
as to develop crucial infrastructure and deliver services in sectors 
such as oil and gas, electricity, housing, education, agriculture, 
public works, and health care. Through targeted technical assistance, 
we will work with key Iraqi interlocutors to encourage and support 
prudent financing mechanisms and multi-year budgetary planning to 
foster Iraq's long-term economic stability.
    Humanitarian assistance, in the context of the current crisis, 
remains an ongoing priority as the GOI struggles to cope with the 
millions of displaced persons residing in Iraq. Continued U.S. and 
international support in the form of humanitarian assistance and 
stabilization is critical to ensuring that Iraq can alleviate prolonged 
as well as emergency displacements. An important component of this 
effort is a focus on Iraq's religious and ethnic minority communities, 
which have been disproportionately affected by ISIL's violence.
    As the ISF, working with the international coalition against ISIL, 
begins to push ISIL out of areas over which it exercises control, the 
GOI will need to be prepared to fill the potential gap in government 
administration and services that will be left in ISIL's wake. While the 
GOI's primary focus now must be to concentrate on defending territory 
that it holds and reconstituting its capacity to retake lost terrain, 
Mission Iraq will begin discussions, as appropriate, with GOI partners 
to conceptualize a strategy for quickly reestablishing local 
government, relying primarily on the efficient application of GOI 
assets to ensure that government institutions and activities are 
rapidly established, held accountable, and sustainable.
    In the medium to long term, Mission Iraq will continue to encourage 
the development of ``functional federalism,'' aimed at decentralizing 
administrative and fiscal authority from Baghdad to the provinces; 
promoting local governance; and ensuring Shia, Sunni, and Kurdish buy-
in to Iraq's democratic institutions. We will advocate for long-term 
resolution of the disagreements between Baghdad and Erbil regarding oil 
exports and revenue management and will support Iraq's efforts to pass 
comprehensive hydrocarbons legislation.
    Also in the medium to long term, Mission Iraq will work with the 
GOI to increase oil production capacity. Poor project administration, 
procurement capacity, limited political will and inefficient policies 
have led to a lack of onshore pumping and limited storage capacity 
threaten Iraqi oil production and exports from reaching their full 
potential, stifling government revenue growth. Iraq also has a 
tremendous opportunity to harness its significant natural gas 
resources, which could help the country meet its domestic electricity 
needs. In addition to partnering to share best practices on fossil fuel 
production and exports, we are engaged with the GOI on capturing gas 
for power generation and hydrocarbons revenue management. We will 
encourage the GOI to continue the reforms necessary to accede to the 
WTO as their implementation would create an environment more welcoming 
to foreign investment. These reforms would open a path to Iraq's 
economic diversification, allowing the country to eventually become 
less dependent on oil revenues as the nearly sole-source of GOI 
income.''

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
